       FOR OFFICIAL USE ONLY


 FEDERAL LABOR RELATIONS AUTHORITY
  OFFICE OF THE INSPECTOR GENERAL




      INTERNAL REVIEW



      INTERNAL REVIEW OF THE
FEDERAL LABOR RELATIONS AUTHORITY’S
     HUMAN CAPITAL INVESTMENT



         REPORT NO. 00-01
           JANUARY 2000



       FOR OFFICIAL USE ONLY          1
                       FOR OFFICIAL USE ONLY

                           Table of Contents




Executive Summary………………………………………………………………….                  I

Report of Internal Review……………………………………………………………             1

Findings and Recommendations……………………………………………………             39

Observations…………………………………………………………………………..                   43

Attachments:

   1.   General Accounting Office Critical
        Components to Building Human Capital………………………………….   45

   2. FLRA Accessions and Separations…………………………………………        49

   3. Management Actions Which Have Positive
      Effects on Human Resources……………………………………………….          51

   4. Human Capital Investment
      Questions for FLRA Supervisors……………………………………………        52

   5. Human Capital Investment
      Questions for FLRA Employees…………………………………………….         54

   6. References……………………………………………………………………                   57

Management Comments:

        Authority……………………………………………………………………….                58

        Office of General Counsel…………………………………………………..       66

        Federal Service Impasses Panel……………………………………………      68




                       FOR OFFICIAL USE ONLY                      2
                              FOR OFFICIAL USE ONLY



                              Executive Summary

Subject: Inspector General Internal Review of the Federal Labor Relations Authority’s
Human Capital Investment

Background: Human Capital Investment is a contemporary term for Human Resource
Management with a positive connotation. Congress has been concerned that, with
downsizing, budget cuts and much management and program reforms over the last
decade, Federal agencies may not be sufficiently “investing” capital in remaining
personnel to adequately train and develop them to meet current and future needs.

Discussion: For a small agency, the Federal Labor Relations Authority (FLRA) has
implemented many programs which attribute to the development and quality of work life
for its personnel. Basically, the FLRA does consider human resources as an asset and
vital to the accomplishment of its mission. Performance evaluations are tied to
strategic program expectations, and the Agency is strategically staffed. Programs and
policies which affect employees are usually developed with input from the Union of
Authority Employees as well as management. The Human Resource Division service
orientation is strengthening and the workplace environment is continuously being
enhanced. Safety, security and health issues have received more management and
employee attention over the last few years.

While the FLRA has some noteworthy human capital investments, this review surfaced
some important issues and employee perspectives which management should take
seriously and address. Some of these areas include a perceived inequity between
the development and training of legal professionals and support personnel, lower legal
professional working level grades than other comparable agencies, a relatively high
separation rate over the last two years, a low budget allocation for training (which does
not actually represent the true training investment), lack of agency-wide use of workload
analysis and position management to support staffing and a perception among one
element’s paraprofessional and clerical staff that is having a negative effect on morale.

Conclusion: In many ways, the FLRA can be considered as a role model agency for
Human Capital Investments. The FLRA already meets most of the Standards for
Human Capital Investment that was recently issued by the Government Accounting
Office (Attachment 3). While there are some areas of human capital investment and
some human resource issues which require more management attention and focus, for
the most part, the FLRA, with its collegial and personnel oriented environment, is well
on its way affirming that its human resources are a vital asset and critical to
accomplishing its unique mission.

                              FOR OFFICIAL USE ONLY                                    3
                       FOR OFFICIAL USE ONLY


                Federal Labor Relations Authority
                         Inspector General
                        Internal Review of
               Federal Labor Relations Authority’s
                    Human Capital Investments
                           FY 98 - FY 99

SCOPE:

The scope of this evaluation included a review of how the Federal
Labor Relations Authority enables its employees to develop and use
their full potential to meet the Federal Labor Relations Authority
strategic plan goals and objectives. This evaluation also included
an assessment of Federal Labor Relations Authority’s training and
education approach, performance management system, employee
development program, hiring, staffing, employee attitudes and morale
and how Federal Labor Relation Authority contributes to the well
being, motivation and satisfaction of its employees.

METHODOLOGY

This review involved preliminary preparation with historical
research into both past and contemporary literature dealing with
human capital investments and discussions with principals at the
Office of Personnel Management and Office of Management and Budget.
This review also involved research and analysis of both former and
current Federal Labor Relations Authority initiatives and documents
dealing with human resource management, statistical compilations
of expenditures for training, awards and employee development, a
review of equipment, supplies and tools provided to employees, and
monies allocated for salaries and benefits. Initial information
provided was coordinated through the Office of the Executive
Director. The initial information provided to the Inspector
General, as a result of the Internal Review data and documentation
request letter did not always coincide with information and
statistics provided as a result of staffing the draft report to the
component senior management.     Therefore, a second draft was
prepared by the Inspector General based on the second set of
statistics and distributed to the Executive Director, General Counsel
and Chair of the Federal Service Impasses Panel for final comments
and information verification. Appropriate additional information
and management’s comments have been incorporated in this final
report.


                       FOR OFFICIAL USE ONLY                       4
                       FOR OFFICIAL USE ONLY


As part of this review, an analysis was made of hiring and employee
turnover, comparisons with similar Federal agencies of entry and
working level grade structure, and a compilation and review of major
employee oriented initiatives performed by the Agency and its three
components, the Authority, Office of the General Counsel and Federal
Service Impasses Panel. Interviews were conducted with randomly
selected Headquarters management and employees. Questionnaires
were mailed to randomly selected Regional Office supervisors and
staff to provide a regional perspective of Federal Labor Relations
Authority’s human capital investments. Initially, 28 employees were
interviewed. An additional 8 were interviewed following the receipt
of management comments on the initial draft. A final total of 36
Federal Labor Relations Authority employees were interviewed and/or
surveyed, 10 of whom were in management positions.

Discussions were also held with appropriate principals from the
National Labor Relations Board, the Office of Special Counsel, the
Merit Systems Protection Board, the Office of Personnel Management,
General Accounting Office, Brookings Institution and Library of
Congress. All findings were based on repetitive issues surfaced,
discussed and validated during employee discussions and/or through
the analysis of statistical information provided by the Office of
the Executive Director, Office of the General Counsel and Federal
Service Impasses Panel. Issues were discussed with appropriate
managers prior to being documented in this report. The initial draft
was written in a general manner to insure the confidentiality of
employees. However, to accommodate the request of the Executive
Director, this final report sites numbers of employees to provide
a statistical basis for comments and recommendations. Likewise to
accommodate the request of the Office of General Counsel,
organizational components were also differentiated in this final
report. This was done to accommodate management’s request, while
still maintaining the confidentiality of those employees interviewed
and with the understanding that the will be no reprisal actions
against employees as a result of this information.

INTRODUCTION

“Human capital” is the new Federal “reinvention” term for what has
been referred to over the past decade as “human resources.” There
is, however, one unique difference between “human resources” and
“human capital.” “Human capital” allows the consideration of human
resources as assets to be nurtured, developed, protected, and saved
rather than as “resources” which are associated with terms such as,
“usable,”“expendable” and “consumable.” The “human capital” view


                       FOR OFFICIAL USE ONLY                      5
                       FOR OFFICIAL USE ONLY


of people is based more on an economic and evolving perspective (as
opposed to the costly, depreciating resource). This new perspective
provides management the opportunity to include human capital as a
mission critical asset in strategic planning and as an element of
accomplishment and long term value. Just as we invest in other types
of assets (such as stocks and bonds) and patiently watch them grow
until the time we capitalize on the return, we can now understand
and apply this fundamental concept to Federal employees (i.e. develop
and retain employees to reap a return on the investment in their
development.) The dollars spent on training, protecting, and
enhancing employees, (human capital investment) is not a cost or
debt to be minimized but a strategic asset and credit to be enhanced.

There is very little official policy, or extensive literature written
about human capital investment in the Federal government (during
the final staffing of this report, the GAO issued a report on Human
Capital), yet it is the very essence of government’s structure,
success, and survival. Human capital investment is really just a
new name for money allocated to initiatives and functions that develop
and enhance human resources. Human capital investments should have
management’s priority attention and be integrated into every
organization’s management philosophy, strategic planning,
practices, programs and products/services. Many private sector
studies in recent years have shown that organizations are likely
to fail if they do not address the human dimensions of their actions.
The same is true in the public sector as well.

Congress has, throughout its history, repeatedly affirmed that the
human resource is the most important Federal government asset.
During these last years of major Federal government budget cuts,
downsizing, and government reform, the concept of recognizing human
resources as an asset appeared to be diminished by “doing more with
less,” and getting the “most for the money.” However, the
Administration’s nor any other Federal entity’s mission vision,
plans, and commitments to its customers can be fulfilled without
significant effort by the Federal workforce. As the government
strives to reinvent itself and adapt to the influence of a global
economy, changes in technology and workforce demographics and
diversity, the importance of the management of the human capital
investment becomes even more significant.

The General Accounting Office has recently identified four critical
components to building the human capital needed to achieve maximum
results within the Federal sector. They are:



                       FOR OFFICIAL USE ONLY                        6
                        FOR OFFICIAL USE ONLY



     1.   Adopting a strategic approach to human planning,
     2.   Acquiring, developing and retaining a staff with skills
          and expertise to meet critical mission needs,
     3.   Creating a performance-based organization, and
     4.   Protecting merit principles.

In spite of the fact that many Federal workers feel they are underpaid,
underutilized and are losing more and more attributes from their
benefits, a 1997 report issued by the Congressional Budget Office
comparing Federal salaries with those in the private sector found
that, in a majority of instances, the Federal government promotes
its workers faster than the private sector, places a much higher
percentage of educated persons in higher graded positions, provides
step increases at a greater rate, provides more stable benefit
packages and spends more training dollars on employees than private
sector counterparts. A list of these standards and a summary of the
FLRA’s major efforts in these areas will be found in Attachment 1.

The current Administration has been committed, since its onset, to
strengthening the relationship of pay to performance, particularly
for employees with significant program and/or managerial
responsibilities. Actually, the foundation for human capital
investment was laid in l993 with the National Performance Review
(now called the National Partnership for Reinventing Government),
although it didn’t specifically define human resources as an asset.
 Congress codified this concept with the passage of the Government
Performance and Results Act later that year and has continued to
pass legislation that integrates human capital investment strategies
(such as the Federal Acquisition Streamlining Act, Clinger-Cohen
Act, etc.). Congress wants capital asset decisions to be performance
driven. Federal agencies are currently engaged in incorporating
this direction into their operational strategies.

The effective management of employees, i.e. an organization’s human
capital, is essential to achieving a mission. Management should
view human capital as an asset, not a cost. When the right employees
with the right skills and expertise for the job are on board and
when they are provided the right training, incentives, technology,
tools and empowerment, operational success is more achievable. It
is an inherent management responsibility to continually assess work
requirements and ensure that their organization obtains and retains
employees that have the necessary skills to achieve organizational
goals. Training should be aimed at developing and refurbishing
employee skill levels to meet changing and evolving needs.
Management must assume the responsibility of developing, motivating

                        FOR OFFICIAL USE ONLY                        7
                        FOR OFFICIAL USE ONLY

and mentoring its employees as well as enriching and broadening their
work experiences so that they remain challenged and feel continuous

growth and opportunity. This is so very important in a small and
specialized organization such as the Federal Labor Relations
Authority.

Management of employees is not just the job of the Human Resources
Division, but is the responsibility of every manager in every
organizational entity. Leaders, managers and supervisors have to
engage in creative and effective approaches for managing today’s
diverse, well educated and enlightened workforce. No reinvented
government will work if it is built on a base of distrustful attitudes,
cumbersome systems and micro-management which hinder innovation,
and actions which devalue and misuse the workforce. Reinvented
government will work only if it is built on a base of trustful
attitudes and respect. Management must institute simple systems
which promote innovation, allow room for thoughtful risk taking,
and support the value and astute use of its workforce. Employees
also must change their traditional perspectives as well and take
responsibility and be accountable for their work,
interrelationships, and continuing development.        In addition to
striving for high quality services with a direct orientation to
customers, both internal and external Federal employees must accept
responsibility and accountability in return for their empowerment.

Leadership, managers and employees alike must commit to public
service as both a privilege and partnership. There needs to be
fairness and equity in organizational policies, procedures and
actions. Performance evaluations tied to strategic program
expectations and ongoing feedback, supplemented by an effective and
visible reward system, should be designed to enable employees to
understand the connection between their performance and the Federal
Labor Relations Authority’s success as an organization. As part
of its human capital planning, management should also consider how
best to retain its valuable employees. Management should also plan
for eventual succession by developing its junior employees and
ensuring corporate continuity of needed skills and abilities.
Simply stated, investments in human capital should be one of
management’s paramount concerns.

In summary, the management of human capital should focus on renewable
and flexible assets, align and integrate with strategic and workload
planning, involve investments of time and dollars, and be measurable
and tied to the core mission. The responsibility for the effective
management of human capital lies primarily with line management,
although strong leadership aligned with contemporary management

                        FOR OFFICIAL USE ONLY                        8
                       FOR OFFICIAL USE ONLY

practices must provide the foundation for this futuristic and
pragmatic viewpoint. The critical challenge for all Federal
management during the next few years will be to align the formal

organization structure and human resource systems so that they become
the drivers of the strategic objectives and success of the
organization.

OVERVIEW OF FLRA HUMAN CAPITAL INVESTMENTS

For a small agency whose appropriation primarily is allocated to
paying employees’ salaries and benefits, the Federal Labor Relations
Authority human capital investment is an important factor. Over
the last three years, the Federal Labor Relations Authority has
dedicated 75 % of its budget to pay for its educated workforce.
In FY 98, the Federal Labor Relations Authority’s budget
appropriation was $22,390,000.00. Of the total appropriation,
$13,698,717.00 was obligated for employee salaries and an additional
$2,491,850.00 was obligated for employee benefits. (Salary
obligations exclude Upward Mobility Program, sum leave payments,
overtime and awards). In FY 99, the Federal Labor Relations
Authority was appropriated $22,586,000.00 and received a $243,009.00
supplementation appropriation on February 3, 1999, but this was for
Y2K compliance expenditures. Through December 1999, the Federal
Labor Relations Authority has obligated $14,743 472.00 to employee
salaries while another $2,722,490.00 has been obligated for employee
benefits.

The Federal Labor Relations Authority staff consists of Presidential
appointees, Administrative Law Judges, attorneys, labor-management
specialists and support personnel. The Federal Labor Relations
Authority generally hires attorneys at the entry level (GS-9) and
places them in a 9/11/12/13 career ladder program. Case writers
in the Authority are sometimes hired at a GS-11 level when supported
by experience or educational attainment. Labor relations
specialists are generally hired at the GS-7 level. The career ladder
for labor relations specialists is 7/9/11/12/13. Federal Labor
Relations Authority management prefers to train their attorneys and
labor relations specialists, which is one reason why they are hired
at the entry level, and this is done on the job with supplemental
training and mentoring, as necessary. In general, attorneys are
hired at higher levels in the Authority than in the Office of the
General Counsel. However, the Office of the General Counsel is
staffed with more attorneys at the GS 14 journey level than the
Authority Critical management drivers for major entry level
professional hiring appear to be a combination of current labor market


                       FOR OFFICIAL USE ONLY                        9
                       FOR OFFICIAL USE ONLY

conditions, budget restrictions, the desire for internal molding,
and obtaining more man hours for the dollars spent. As indicated
previously, in FY 99, the Federal Labor Relations Authority operated
on a budget $22,586,000.00 which funded 216 full time equivalents

and operational/program costs. Obviously, this small budget places
some restrictions on staffing and grade levels, and it is important
for the Agency to spend its money wisely and obtain a return on its
investments.

A recent Merit Systems Protection Board Survey involving 1,000
Federal managers revealed that lack of promotion opportunities for
their employees was their most pressing concern. Hiring employees
with the right skills, helping employees keep their skills current;
productivity and the influx of new technologies were also major
concerns. A recent review of the Federal Labor Relations Authority
Human Resources Program by the Office of Personnel Management
revealed that, the Federal Labor Relations Authority was ‘ahead’
of most Federal agencies in its strategic planning and that, for
a small agency, it had a very impressive Human Resources Program.
While there were some areas that needed more focus (such as the hiring
of veterans and minorities), Office of Personnel Management reported
that the Federal Labor Relations Authority had many positive programs
and planned initiatives in the human resource development area.
Basically, this review validates the Office of Personnel Management
findings, but focuses on and distinguishes individual Federal Labor
Relations Authority component activities, achievements and areas
of vulnerability, and identifies several internal systemic issues
with the intent to correct them before they become human capital
problems.

Hiring and Retention of Personnel

According to statistics provided on December l7, l999, by the Human
Resources Division, in 1998, the Federal Labor Relations Authority
hired 29 professional and 3 administrative support personnel. Of
the 29 professional hires, 20 were attorneys and 9 were Administrative
support professionals. Three administrative support clerical
personnel were hired for a total of 32 employees hired in l998.
No labor relations specialists or legal paraprofessionals were hired
in l998.    Broken down to the component level, in l998, the Authority
hired 21 employees, the Office of the General Counsel hired 9
employees and the Federal Services Impasses Panel hired 2 employees.
In l999, the Authority hired 19 employees, the Office of the General
Counsel hired 23 employees and the Federal Service Impasses Panel
hired 2 employees.


                       FOR OFFICIAL USE ONLY                       10
                       FOR OFFICIAL USE ONLY


As of December l7, 1999, the Federal Labor Relations Authority hired
a total of 44 new personnel. Sixteen of the total was attorneys,
4 were labor relations specialists, and 1 was a legal
paraprofessional,


5 were administrative support professionals, and 18 were
administrative support personnel. During 1998, 22 employees left
the Federal Labor Relations Authority. This included 8 attorneys,
2 labor relations specialists, 5 administrative support
professionals and 7 administrative support clerical personnel. The
total separations during l998 were 8 from the Authority, 14 from
the Office of General Counsel, and 3 from the Federal Services Impasse
Panel. Three employees retired from the Office of the General
Counsel in l998. As of December l7, 1999, 32 employees left the
Federal Labor Relations Authority in l999. This included 10
attorneys, 5 labor relations specialists, 1 legal paraprofessional,
5 administrative support professionals, and 11 administrative
support clericals. The total separations during l999 from the
Authority were l9 employees, 17 employees from the Office of the
General Counsel and 1 employee from the Federal Service Impasses
Panel. Retirements included 2 from the Authority and 3 from the
Office of the General Counsel. Statistical breakdowns for l998 and
l999 accessions and separations are provided in Attachment 2.

Based on the total full-time equivalent (FTE) authorization of 216,
the accession rate during FY 98 was 14%, while the separation rate
was 10%. During FY 99, the accession rate was 20%, while the
separation rate was 14%. The Federal norm for employee turnover
is 10%. The Federal Labor Relations Authority turnover ratio for
l998 was 12% and for l999 is l7%. While the Federal Labor Relations
Authority turnover is slightly higher than the norm, reasons for
this turnover could not be determined because such information was
not documented. However, regardless of the reason, separations have
a significant impact because the Federal Labor Relations Authority
is a small organization. However, the statistics clearly
demonstrate that there was an increase in the turnover of attorney’s
professional administrative support personnel and clerical personnel
over the last year. While the Federal Labor Relations Authority
has a standardized sign out-process, it does not maintain information
on an agency level on why employees leave. Management might benefit
from such information and use it to determine what may be causing
personnel to leave. The Federal Labor Relations Authority has
historically had a high turnover of legal personnel. In addition
to normal attrition factors such as retirement, mobility, personal
family needs, etc., another contributing factor may be higher

                       FOR OFFICIAL USE ONLY                       11
                       FOR OFFICIAL USE ONLY

salaries for attorneys in the private sector and higher entry level
and journeyman level positions in comparable Federal agencies.
Management should attempt to determine what is causing the turnover
of personnel, especially during this last year. During this review,
management indicated that they intended to begin collecting this
information.

In order to maximize hiring the best at entry level salaries and
to aid in developing knowledge and skills in the labor management
area, the Federal Labor Relations Authority Human Resources Division
has defined core competencies for both attorneys and labor management
relations specialists. The Federal Labor Relations Authority Human
Resource Division is currently doing the same for Federal Labor
Relations Authority’s administrative support staff. A Tier II
(Grades 12/13/14) development program exists to prepare tenured
employees for management and leadership positions in the Federal
Labor Relations Authority.    The Office of the General Counsel does
not participate in the program and is developing a separate training
and leadership development program for its personnel. According
to General Counsel, as designed, the Tier II program did not meet
the training needs of the Office of General Counsel personnel and
the geographic dispersion of its Regional Office employees made
participation in this program impractical. According to the General
Counsel, the agency did not alter its program plan to incorporate
any of the Office of General Counsel’s comments and concerns to
facilitate Office of the General Counsel participation. The Office
of General Counsel went on to develop its own Leadership Development
Program which is tailored to its specific needs and has reactivated
the Upward Mobility Program in its Regional Offices for its Office
Managers.    The Director of Human Resource Division arranged
contemporary management training and some refresher training for
all Federal Labor Relations Authority supervisors this past year
and will continue doing so during this next year.

Accession and separation statistics for l999, furnished by the Human
Resource Division showed a rather large turnover in clerical
personnel, as well as professional personnel. As stated in the
Office of Inspector General l999 Case Control Internal Review,
without a workload analysis and position management reviews, the
validity of positions and associated grade levels will always be
questionable. The Federal Labor Relations Authority Authority has
tended to staff clerical support personnel vacancies by more
traditional methods than by actual workload analysis. The Office
of the General Counsel has used workload as a basis for staffing
for the last several years and is providing its office managers with
an opportunity for upward mobility by providing them with technical
computer and information resource training. But this is not an

                       FOR OFFICIAL USE ONLY                      12
                       FOR OFFICIAL USE ONLY

agency-wide practice. Most of the other Federal Labor Relations
Authority administrative support clerical positions afford no or
very little opportunity for progression within the series.
Interviews with three Authority administrative support clerical
personnel reflected that this factor has adversely affected their
morale.   While it is evident that there are vast educational
difference between legal and administrative professionals and
clerical employees, it is conceivable that with the appropriate
development (based on both management and employee commitment)
clericals could be developed into paralegals and administrative
support clericals could develop into office managers and even
administrative support professionals. While such development would
require a commitment, more education and hard work by the employee,
it is a possibility. Private and public sector studies have shown
that employees often tend to become complacent and lose motivation
and self initiative without the challenge for future advancement.

Staffing

The Federal Labor Relations Authority is predominately staffed with
attorneys and labor management relations specialists. Attorneys
(904 and 905 series) are normally recruited at a GS-9 entry level
(law school graduates) or at the GS-11 (case writers with some
experience). Labor management specialists are normally hired at
a GS-9 level. Entry level attorneys have a career ladder (9/11/12/13
which brings them to the journey level, GS-13.      The Federal Labor
Relations Authority had 92 classified attorneys in 1998 and 98 in
1999. While, as previously indicated, the journey level for
attorneys in the Federal Labor Relations Authority is GS-13, the
Federal Labor Relations Authority does have a notable amount of
attorneys in classified positions of GS-14. In 1998, there were
23 attorneys working at the GS-14 level. Ten GS-14 attorneys were
employed by the Authority, 12 in the Office of General Counsel and
1 in the Federal Service Impasses Panel. In 1999, the Federal Labor
Relations Authority had 21 classified attorneys working at the GS-14
level. The Authority employed 8, the Office of General Counsel
employed 12 and 1 was employed by the Federal Service Impasses Panel.
 The full performance grade level for attorneys and labor relations
specialists at the Federal Labor Relations Authority is GS-13. The
Federal Labor Relations Authority generally hires attorneys below
the GS-12 level. In comparison with other quasi-judicial agencies
staffed primarily with attorneys, Federal Labor Relations Authority
grades for its legal professionals are lower, with the exception
of Regional Office Directors who are comparably members of the Senior
Executive Service. While it is understood that levels of mission
critical legal work and responsibilities differ among the various
agencies and may be the basis of the differences in grades, Federal

                       FOR OFFICIAL USE ONLY                      13
                       FOR OFFICIAL USE ONLY

Labor Relations Authority’s lower grade structure was mentioned as
an issue by 6 regional offices and Authority attorneys as a reason
for not planning tenure with the Agency.

The National Labor Relations Board hires all attorneys just out of
law school at a GS-11 level. Attorneys with two years experiences
are hired at a GS-12 level. The journey level for attorneys is GS-14
at the National Labor Relations Board. National Labor Relations
Board regional directors are members of the senior executive service
and their regional counsel are GS-15's.      The National Labor
Relations Board has non-attorney examiners who are hired at the entry
level of GS-5. If examiners are outstanding scholars, they are
brought in as a GS-7. If examiners have experience, they are brought
in at a GS-9. The Office of Special Counsel does not hire attorneys
just out of school but brings attorneys with experience in at an
entry level of GS-11 for case examining and GS-13 for litigation.
The journey level for attorneys at the Office of Special Counsel
is GS-14 and tenure brings them to a GS-15 level. The Merit Systems
Protection Board hires attorneys at the entry level of GS-11. The
journey level grade for attorneys at the Merit Systems Protection
Board is GS-14. In comparison with other Federal agencies, the grade
structure of the FLRA administrative professional (non legal) staff
is comparable, but its administrative support clericals are generally
more highly graded with the average grades being GS-7. Federal Labor
Relations Authority Regional Director and Regional Attorney grade
levels are comparable to those of the National Labor Relations Board
field offices.

Eight out of ten Federal Labor Relations Authority managers
interviewed felt that it is cost beneficial to hire entry level
professional personnel because they have fresh skills, high
motivation, are trainable, can grow and gain corporate knowledge,
and are generally good performers. For the most part, this is all
true. However, a return on investment is achieved only if these
employees stay with the agency for several years after they reach
the journey level. It is conceivable that when employees discover
that their peers both in government and the private sector are being
paid more for the same competencies and skills, the probability of
Federal Labor Relations Authority retention after the investment
of capital will diminish significantly. While not true for all,
long term Federal benefits, job security, and public service are
not as strong motivators for today’s young people just out of school
as money, status, responsibility and growth. So when the Federal
Labor Relations Authority focuses on hiring its legal personnel at
a low entry level and earmarks their journeyman level lower than
comparable agencies, Federal Labor Relations Authority management
has to accept the fact that the probability of retention will remain

                       FOR OFFICIAL USE ONLY                      14
                       FOR OFFICIAL USE ONLY

low unless other tangible or intangible incentives provide the
motivation for these employees to stay. Yet, in order to benefit
from new hires, the Federal Labor Relations Authority must invest
as they would if they were guaranteed tenure from these employees.
Someone, but most likely not the Federal Labor Relations Authority,
will reap the benefit of the Federal Labor Relations Authority’s
initial monetary investments in its entry level legal resources.
Management may benefit from Agency-wide work specific position
classification and a workload analysis which would validate or
invalidate the Federal Labor Relations Authority’s legal grade
structure and/or justify more ‘across the span’ hiring and provide
the Federal Labor Relations Authority with better retention of its
professional hires. Tenure of employees is important, not just in
the technical sense, but also in the development of professional
corporate memory and the “in-house” development of future Federal
Labor Relations Authority leadership.

The Federal Labor Relations Authority, as an agency, does not actively
use position management reviews and statistical workload
justification as management tools for its classification of positions
and assignment of personnel (although the Office of the General
Counsel has conducted a number of position management and workload
analysis reviews during the last five years.) The Federal Service
Impasses Panel collected workload statistics in l998 as a result
of an Inspector General Internal Review recommendation. In the past,
several desk audits and systemic reviews were conducted to justify
the upgrade of some administrative clerical support positions in
the Authority. Copies of these were not furnished to validate their
existence or content. Without workload analysis and position
management studies, it is not possible to determine if functions
are appropriately staffed, resources are appropriately allocated,
or if positions are under graded or over graded for the work required
and performed. The strategic use of human resources cannot be
justified without viable workload assessments, meaningful position
classification and position management. Strategic planning,
productivity and performance measurement are all dependent on a valid
workload analysis, proper classification of positions and the
appropriate use of resources. Ultimately, without such
workload/staffing validation, not only is mission accomplishment
vulnerable, but also the productivity, morale, development and
quality of the work environment and workforce can be negatively
impacted.

Training

Federal Labor Relations Authority employees are normally developed

                       FOR OFFICIAL USE ONLY                       15
                       FOR OFFICIAL USE ONLY

with extensive senior management and peer mentoring that shows them
how they fit into an organization’s strategy and how they can improve
their core competencies so that they can contribute to the achievement
of both the agency’s and their own goals. While, the Federal Labor
Relations Authority verbally encourages employee development, the
only baselines $500.00 for training for each employee. This is less
than 1% of the predominately payroll oriented budget. However, it
is important to note that there is some flexibility in the $500.00
allocation and most employees receive training that far exceeds that
figure.

It is interesting to note the difference between the initial training
allocations and the actual allocations. The following figures cover
both the training and associated travel costs. In FY 98, a total
of $108,000.00 was initially allocated for training in the Agency
Operating Plan. The actual amount spent was $188.500.00. Broken
down into component allocations, the Authority was initially
allocated $45,500.00 and ended up with an allocation of $100,000.00.
The Office of the General Counsel was initially allocated $58,000.00
and ended FY 98 with training expenditures of $75,000.00. It is
important to note that since the Office of General Counsel is a
geographically dispersed organization and accomplishes a majority
of its training objectives through the use of its own employees as
instructors, training travel costs comprise a significant part of
their training expenses. The Federal Service Impasses Panel began
FY 98 with an initial allocation of $4,500.00 and ended the fiscal
year with a $6,000.00 allocation. There was no initial training
allocation to the Agency Central Services Fund in FY 98 but it ended
up with an allocation if $7,500.00 to cover Agency-wide training.

During FY 99, a total of $123,000.00 was initially allocated for
Agency-wide training. The final FY 99 allocation totaled
$233,740.00. The Authority had an initial allocation of $45,500.00
and ended up with an allocation of $ 70,500.00. The Office of the
General Counsel was initially allocated $58,000.00 and ended up with
an FY 99 training allocation of $63,740.09. The Federal Service
Impasses Panel was allocated and ended up with a FY 98 training
allocation totaling $4,500.00. During FY 99, the Agency Central
Services Fund was allocated $15,000.00 for Agency-wide training and
ended up with an actual allocation of $95,000.00

The actual Agency-wide expenditure for training for FY 98 was
$165,242.00 plus training travel totaling $64,251.00 for a grand
total of $ 233,793.00  Broken down into component obligations, the
actual dollars spent on training by the Authority in FY 98 was
$75,193.00. The Office of the General Counsel spent $85,757.00 and

                       FOR OFFICIAL USE ONLY                       16
                       FOR OFFICIAL USE ONLY

the Federal Service Impasses Panel spent $5,058.00 during FY 98 and
$3,534 was spent for Agency-wide training and obligated from the
Agency Central Services Fund.

The actual dollars spent by the Federal Labor Relations Authority
for training during FY 99 was $ 212, 439.00 (plus training travel
of $165,262 for a final total of $377,701.00.) Broken down into
Components the training dollars spent by the Authority in FY 99
totaled $54,795.00. The Office of the General Counsel spent
$60,371.00 plus an additional amount of $20,000.00 for consulting
management services related to the training of Office of the General
Counsel Staff. The Federal Service Impasses Panel spent $3,813.00
on training during FY 99.     $93,460.00 was taken from the Agency
Central Services Fund to augment training funds in FY 99. The Human
Resource Division’s Staffing Pattern for FY 98 indicated that there
were 205 employees on board on September 30, l998 and 212 employees
on board on September 30, l999. The average total Agency training
expenditure with associated travel costs) per person for FY 98 was
$1,140.45 per employee (205 FTEs on board) and $1,781.60 per employee
(212 FTEs on board) for FY 99.

Private sector studies have shown that nearly three times more
productivity is gained by investing in human capital training than
if the same money were spent on new technology or equipment. Training
is especially important after a period of downsizing when an
organization must commit to doing more with less and personnel assume
new functions and responsibilities. Investing in human capital is
not something to be done lightly. It is important to individualize
training, as well as screen out those courses or in house training
which is of lesser quality. The agency’s “return on investment”
increases when managers discuss completed training with employees
and when the employee shares his/her newly gained knowledge with
his peers. While a few Federal Labor Relations Authority supervisors
discuss training with their employees after it is completed, it is
not an agency-wide practice. The actual degree of mentoring of
Federal Labor Relations Authority employees is primarily dependent
on individual component practices and supervisory styles. For
instance, all GS-14's in the Office of the General Counsel are
expected to mentor junior employees. The Authority’s Office of the
Solicitor likewise has an active internal mentoring program.
Twenty-four (24) of the 28 non-management employees interviewed
stated that their supervisors spent a great deal of time working
with them and that they “shadowed” their seniors, and thus, acquired
exposure into new subject matter. Several employees were also
engaged in after-hours training to improve knowledge pertaining to
their jobs or to obtain a degree. Federal Labor Relations Authority

                       FOR OFFICIAL USE ONLY                      17
                       FOR OFFICIAL USE ONLY

generally subsidized such training when it was job related. Only
one employee interviewed commented that after hours training was
not subsidized because management felt the course work was not job
related.

This review did validate that in spite of minimal Agency training
allocations per person, most Federal Labor Relations Authority
Employees interviewed had received training during the last two
fiscal years and training costs per person were augmented when
required. However, even with this augmentation, official
allocations for training during FY 98 and FY 99 totaled 1% of the
total Federal Labor Relations Authority budget.

Upward Mobility Program

The Federal Labor Relations Authority Upward Mobility Program, which
was active in the early 1990, has dwindled down to almost a “paper
exercise.”    Downsizing and budget restrictions have restricted the
use of Upward Mobility Program for employee development simply
because there are very few vacancies available at any given time
and there has not been an Agency-wide formal designation of positions
for this program. Most Upward Mobility Programs in the Federal
government are actively used and structured with a three tiered level
(i.e. 7/9/11) and promotions are made annually if requirements are
met satisfactorily.

The Federal Labor Relations Authority revised its Upward Mobility
Program policy (FLRA Instruction 3330, Competitive Service and
In-Service Placement) during l999 and did restructure an Authority
administrative support vacancy at a lower level to afford in house
candidates an opportunity to compete. It is a well known fact that
Federal Labor Relations Authority’s staff has been significantly
downsized and most positions are critical to the accomplishment of
the mission. There currently exists little flexibility in dedicating
specific positions as development positions. However, it is just
as important to develop support staff as it is to develop the
professional staff. Attorneys who are hired at the GS-9 entry level
and labor management specialists hired at the GS-7 level have an
inherent “built in” upward mobility to the GS-13 level if performance
is satisfactory. This mobility structure is called a “career
ladder”. One Authority Manager interviewed provided an explanation
for the existence of professional career ladders by stating it was
“much easier to provide development for attorneys and labor relations
specialists because more of them did similar work, and such was not
the case with administrative personnel where each employee had
distinctly different responsibilities and tasks.

                       FOR OFFICIAL USE ONLY                      18
                       FOR OFFICIAL USE ONLY


Current Federal Labor Relations Authority policy states that the
purpose of the Upward Mobility Program is to facilitate the career
progression of employees, GS-9 and below, who exhibit high potential
and who are in job series which offer limited advancement. The policy
also states that Upward Mobility Program positions will be announced
through posted vacancy announcements and that career promotions is
based on time in grade requirements and the satisfactory completion
of requirements set forth in a formal training plan. Yet, at the
present time, the program is not operative Agency-wide. While
Federal Labor Relations Authority management has expressed the intent
to create a stronger Upward Mobility Program for administrative
personnel, such a program currently exists on paper for
administrative and clerical functions, except in the Office of the
General Counsel which has created an upward mobility structure for
its office managers.

Tier Development Programs

The Federal Labor Relations Authority has developed “life cycle”
leadership development training for its professional employees
showing high potential for future management positions within the
organization. This is called Tier II Development Training. Tier
II training is for GS 12/13/14. Tier I, is not yet developed, but
is planned to focus on Authority case writer development. Tier III
will provide development and enhancement for executive leadership
and will be for supervisors GS-14/15 and Senior Executive Service
employees. Federal Labor Relations Authority’s Tier training is
directly aligned to its strategic goals, professional core
competencies and succession planning needs. It is competitive and
selection for the program is based on specific criteria. Selection
is rendered by the Federal Labor Relations Authority Leadership
Development Council whose members also serve as career counselors
and mentors for the participants. Applicants must be endorsed by
their first line supervisors. The projected time plan for the
completion of Tier II training is 3 years (flexibility built in)
with a new cycle beginning every year. One of the goals of this
program is to have up to l8 employees participating at the same time.
Guaranteed promotions are not part of the program. In FY 99,
designated funds were set aside for the Tier II program which
officially began in May l999, with 5 employees. A completely
separate budget line item is called for in the Tier Training Program
but has not yet been formally established. The first Tier II class
well represents the Federal Labor Relations Authority’s diverse
workforce.


                       FOR OFFICIAL USE ONLY                      19
                       FOR OFFICIAL USE ONLY

During 1999, the Human Resources Division arranged for several
administrative support training sessions and brown bag lunch sessions
at Federal Labor Relations Authority Headquarters. These sessions
were not well attended in spite of ample advertisement and employee
notification. The Human Resource Division plans to continue these
Sessions during 2000 with the hope that more Federal Labor Relations
Authority employees will take advantage of them.

As mentioned previously, Federal Labor Relations Authority’s Office
of the General Counsel does not participate in the Tier II Program
because of the limited number of participants and regional mobility
issues. Instead, General Counsel opted to create separate employee
development and leadership development training for all Office of
the General Counsel employees. While the training programs
developed by the Office of the General Counsel are merit able and
tailored to its workforces needs, distinctively separate training
development does not support a corporate Agency approach to employee
or leadership developmental training. The concept of Tier training
is a noteworthy human capital investment. Since Tier II training
has just recently begun, an evaluation of its actual merit is not
possible at this time. On paper, it is a well planned program.
However, based on Inspector General past involvement in creating
and administering such programs and continued observations of similar
programs in other Federal agencies, if participants do not experience
progression or at least assignment to jobs which require greater
skills and knowledge gained through the development program,
participation in future years will diminish. The Federal Labor
Relations Authority’s Tier Program may also be restricted by the
lack of appropriate positions for progression and lack of budget
allocations.

Now that Tier II is operative, management should focus its attention
to provide a similar program for development in the administrative
support and clerical functions. Four administrative support
clerical employees, 2 labor relations specialists and 2 managers
from the Authority commented on the fact that the universe of the
existing Tier Program is for professionals. Regional employees were
not aware of the Tier Program, but this is because the Office of
the General Counsel does not participate in it.

Federal Labor Relations Authority management should make a concerted
effort to have Agency-wide development programs to ensure the
equitable treatment (development) of all Agency employees,
regardless of their component. These overarching programs should
provide general, agency applicable skills and contain sufficient
flexibility so that they may be supplemented or tailored, as required,

                       FOR OFFICIAL USE ONLY                       20
                       FOR OFFICIAL USE ONLY

into individual derivative component programs to address each
component’s unique requirements.

Employee Recognition and Awards

The Federal Labor Relations Authority recognizes exceptional
employee performance throughout the year. The Federal Labor
Relations Authority routinely recognizes employees who make
exceptional contributions that have helped the organization or have
exceeded performance goals to improve work quality and responsiveness
with Performance Awards such as “Employee of the Quarter”, “Special
Act”, “Quality Salary Increase” and “Special Service” Awards. “On
the Spot” Awards are also given throughout the year to employees
who make remarkable performance contributions in their regularly
assigned duties or in accomplishing a special assignment. Federal
Service Awards are also given to employees when they complete Federal
service milestones. In June 1999, at the Federal Labor Relations
Authority 20th Anniversary celebration, 38 employees who were
employed at the beginning of Federal Labor Relations Authority in
1979 and who continue to work at the Agency were honored for their
high level of enthusiasm, dedication and professionalism. The
Federal Labor Relations Authority also incorporates its Employee
Recognition Day with its new employee Orientation Program.
Employees receiving performance awards are recognized and thanked
by the Federal Labor Relations Authority Chair and their respective
senior managers for their contributions to the Agency. The
incorporation of performance recognition awards with the Orientation
Program provides an incentive for new employee performance.

In spite of a restrictive budget, the Federal Labor Relations
Authority is generous in acknowledging and rewarding its employees
for their contributions to the Agency. In FY98 a total of $168,000.00
($132,000.00 for Incentive and Performance Awards and $36,000.00
was allocated to the Central Services Fund for Senior Executive
Awards). The Authority total was $53,000.00 for Performance and
Incentive Awards. The Office of the General Counsel awarded
$69,000.00 for Incentive and Performance Awards and the Federal
Service Impasse Panel’s total for Incentive and Performance Awards
was $10,000.09. In l997, 9 employees were given quality salary
increases. In FY 98, 12 employees received quality salary increases.
 In FY99 15 employees received quality salary increases. In FY 99,
the Federal Labor Relations Authority spent $294,369.00 ($185,189.00
on Incentive and Performance Awards, $109,180.00 on Senior Executive
Service Awards.) The Authority gave out 41 awards totaling
$111,276.00.    $72,596.00 was for Incentives and Performance Awards
and $38,680.00 (which included $23,680.00 for a Presidential Rank

                       FOR OFFICIAL USE ONLY                      21
                       FOR OFFICIAL USE ONLY

Award.) General Counsel gave 63 awards totaling $123,375.00
($104,875.00 were for Incentive and Performance Awards and $l8,
500.00 were for Senior Executive Service Bonuses.) The FSIP gave
5 awards totaling $7,718.00 for Incentive and Performance Awards.

A review of the FY 98 awards showed that they were distributed in
compliance with Federal Labor Relations Authority Regulation 3430.2,
Performance Management System. Several of the employees interviewed
commented that they felt that Senior Executives consistently received
significantly large monetary awards ($5,000-$10,000) for
contributions considered “exceptional,” while the majority of
support and employee awards were in the “moderate value” range.
This review did not produce evidence of inappropriate award amounts
and validated that Senior Executive Service awards were properly
handled.    The Senior Executive Service Award pool is set by law.
Prior to l999, it was at 3% of Senior Executive Service salaries.
While legislation has changed and now allows agencies to award Senior
Executives up to 10% of their salaries for performance awards, the
Federal Labor Relations Authority set Senior Executive Service awards
at the 5% level in FY 99. This review also validated that the award
pool of senior executives is larger than that of general schedule
employees. Percentage wise, more general schedule employees
received awards, thus the general schedule pool was more widely
distributed among a larger number of employees accounting for lower
amounts. Less of a percentage of senior executives received awards
from a larger monetary pool, thus accounting for larger amounts.

During l999, the Human Resources Director placed an emphasis on the
Performance Appraisal process and provided management with guidance
and training on the appropriate preparation of performance
appraisals. While subjectivity can never be eliminated from
performance appraisals, this review supported that the Performance
Appraisal System and Performance Awards were administered
appropriately.

Employee Orientation

The Federal Labor Relations Authority holds an annual 2 ½ day
Orientation Program for new employees to acquaint them with the
Agency’s mission and the various organizations that contribute to
or provide support for mission accomplishment. The program is
extensive and provides new employees with information about the
various internal Federal Labor Relations Authority components and
major functions as well as an overview of Federal personnel benefits.
 Upon entry into the Federal Labor Relations Authority, new employees
are given an overview of Headquarters administrative and support

                       FOR OFFICIAL USE ONLY                      22
                       FOR OFFICIAL USE ONLY

organizations (Regional Office personnel are provided with this
information by telephone). Prior to l999, the subject matter of
the annual orientation included a lot of legal information, case
histories, as well as, general administrative information. A change
was instituted to the program in l999 to align the program more to
functions relevant to all employees, major agency rules, and an
overview of the purpose and historical evolvement of the Agency.
Functional handouts are provided in a bound notebook so that employees
have a personal reference. New employees have found the Orientation
Program very helpful.

The only shortfall with a once a year Orientation Program is that
employees who come on board within the first few months after the
October scheduled orientation, must wait almost an entire year to
receive an orientation. Some flexibility in scheduling more than
one orientation per year or some alternative orientation mechanisms
such as a professionally prepared video or tape, as well as the
issuance of an Orientation Notebook to all new employees at the
commencement of their employment would be helpful to new employees.
This has been previously suggested by the Inspector General. Also,
individual meetings/briefings with appropriate management officials
would be beneficial in helping new employees who come on board after
the orientation adjust and bond to their new environment. This is
especially important for Regional Office employees.

During the course of this review, the Office of the Executive Director
did develop an Orientation video for employees who come on-board
during the months between the scheduled orientations. The Office
of the Executive Director provided an e-mail in December l999, to
all managers and employees informing them that this video was
available.

Component Efforts:

For a small organization, the Federal Labor Relations Authority has
implemented many initiatives which enhance the quality of employee
work life and foster employee development. In addition to
Agency-wide initiatives, the individual Federal Labor Relations
Authority components engage routinely in many activities which can
be defined as human capital investments. Additional suggestion for
management support of human capital investments may be found in
Attachment 3. The following sections illustrate some of these
activities.




                       FOR OFFICIAL USE ONLY                       23
                       FOR OFFICIAL USE ONLY


     1.   Authority

The Authority routinely engages in activities that enhance its own
employees’ work life, as well as in initiatives which benefit all
Federal Labor Relations Authority employees agency-wide. The
following accounting focuses on major Federal Labor Relations
Authority Authority “investments” defined by management, but is not
intended to represent all of them.

The Office of the Chair has engaged in extensive internal training
for the recently revised negotiability regulations, as well as
skill-based training on holding conferences with parties. The
Office of the Chair holds weekly staff meetings, not only to keep
staff informed of current issues, but also to collectively review
writing skills. Office of the Chair managers uses their review of
written work to provide feedback to their subordinates on writer’s
performance and identify training needs.

The Office of Administrative Law Judges and Office of Member Wasserman
have committed to assuring that all employees are provided training
that is necessary to develop and enhance their work skills and roles
as Federal employees.

The Office of Member Cabaniss has institutionalized several
innovative human capital investments. On a weekly basis, Member
Cabaniss goes to each employee’s office and holds informal meetings
to see how her employees are doing, work wise and personally. On
the last Friday of each month, Member Cabaniss staff is treated to
a “bagel and cream cheese” social in an effort to get them out of
their offices and interact with one another socially. Member
Cabaniss also routinely uses her senior attorneys as mentors to new
staff members.

The Office of the Solicitor has developed internal initiatives which
promote the exposure of his staff to Authority Programs. The Office
of the Solicitor has instituted a program to cross-train Office of
the Solicitor and Case Control Office paralegals to support the cite
checking requirements of Authority decisions. The Office of
Solicitor also actively engages in cross component details. As an
example, one staff attorney was detailed to the Authority
decision-writing Central Team. Another Office of Solicitor attorney
served as Acting Authority Chief Counsel and supervisor of the Central
Team. The Office of the Solicitor has also established a mentoring
program between a Solicitor staff attorney and paralegal. The staff


                       FOR OFFICIAL USE ONLY                       24
                       FOR OFFICIAL USE ONLY


attorney has previous experience teaching in law school and the Office
of the Solicitor is making productive use of the benefits of this
experience.

The Federal Labor Relations Authority Executive Director routinely
holds Management Meetings to keep Federal Labor Relations Authority
management officials apprised of Agency initiatives and activities.
The Office of the Executive Director plans, coordinates and oversees
a range of activities which benefit all Federal Labor Relations
Authority employees, including the Federal Labor Relations
Authority’s 20th Anniversary events, training conferences, social
events for employees, awards ceremonies, and has worked with the
other components to produce a written history of the Agency. The
Office of the Executive Director also sponsors a Federal Labor
Relations Authority softball team, the Equalizers, and produces
“morning after fame” accounts which are circulated agency-wide in
the Media Flash. In addition, the Office of the Executive Director
produces an Federal Labor Relations Authority Employee Newsletter
four times a year which provides Federal Labor Relations Authority
nationwide employees with both official and employee information.

The subcomponents of the Office of the Executive Director also
contribute to agency-wide human capital investments as well as
internal investments in their people. The Human Resources Division
staff gets together periodically to work on crafts. This type of
activity allow employees to take their minds off work, engage with
their peers on projects unrelated to work and builds relationships
in a new social and creative setting which facilitates better
interface in the work environment. The Human Resource Division
Director uses a supervisory approach that focuses on mentoring and
provides continuous feedback to employees on writing skills,
relationship building and conflict management. The Director of the
Administrative Services Division sponsors an annual “Take Your
Daughter to Work” Program which is open to all metropolitan employees,
has quarterly off-site staff meetings to discuss work issues, and
arranges brown bag lunches for her staff to watch videos on
contemporary work issues.     The Director, Administrative Services
Division also holds an annual Holiday party for her staff, in addition
to the Agency party, to show her appreciation for their good work.
The Information Resource Division provides continuous “help desk”
service to Federal Labor Relations Authority personnel, sponsors
agency-wide computer systems and electronic research training and
provides Media Flash agency-wide to ensure all employees receive
the same information in a timely manner.



                       FOR OFFICIAL USE ONLY                       25
                       FOR OFFICIAL USE ONLY


      2.   Office of the General Counsel

The Office of the General Counsel strongly supports the training
and development of its employees. It focuses on keeping its senior
management aware of contemporary management practices by sending
one employee to the Federal Executive Institute each year. The
Agency funds one position per year and alternates the selection
between the Office of the General Counsel and the Authority/Federal
Services Impasse Panel. The Office of General Counsel funds a
participant out of its training budget in alternate years. The
Office of the General Counsel also sends two employees to the Center
for Creative Leadership each fiscal year. This annual investment
in human capital, alone, runs about $20,000.00 per year. The Office
of the General Counsel also sends several Grade 14s and l5s each
year to the Harvard Negotiation Project, two employees to the Center
for Creative Leadership, one employee to the Federal Executive
Institute and one senior executive to the Harvard Program on Executive
Leadership. The Office of General Counsel has also planned to
provide its employees with Conflict Management and Resolution
Training to its staff beginning in December 1999. The individual
Regional Offices also conduct additional training activities
including brown bag lunch and skill based training sessions.

The Office of the General Counsel requires individual development
plans for all GS-13 and below employees, provides coaching and
mentoring to all managers and GS-14 specialists. The Office of
General Counsel holds at least one training conference a year for
litigation specialists, representation specialists and dispute
resolution specialists so that they maintain currency in skills and
expertise. New Office of the General Counsel employees receive one
on one training sessions with their Regional managers, receive
training in case law, Representation Manual training, observe the
running of Mail Ballot Elections, review Litigation Manuals for
pending trials, receive pre-trial preparation, pre-hearing briefs
and pre-hearing settlement negotiations with journeyman level
attorneys and review Appeal Cases under supervision. They also
attend Unfair Labor Practice and Representation Hearings and shadow
more senior professionals in the investigation process.

Training is also provided by Regional Offices on a continuing basis.
New Authority cases, Administrative Law Judge decisions
investigation and representation issues are routinely discussed at
Regional staff meetings. Brown Bag lunches are held to discuss
significant changes in case law development and procedures. The
Regional Offices provide both formal and informal Alternative Dispute

                       FOR OFFICIAL USE ONLY                       26
                       FOR OFFICIAL USE ONLY

Resolution and Mediation Training. Regional Office staff is kept
informed on significant case law and representation issues.
Continuous mentorship is provided to new employees by GS-14
employees. The Office of the General Counsel’s regional staff is
sent annually to seminars on labor relations.

As previously noted the Office of the General Counsel does not
participate in the Agency Tier program because the program did not
accommodate regional requirements and had quota limitations.
Instead, the Office of the General Counsel has taken full
responsibility of training its entire staff by implementing internal
training. During l998, the Office of the General Counsel developed
and implemented Career Profiles for Labor Relations Specialists and
Attorneys and provided its Regional Directors with guidance on the
type of assignments and training those employees should receive at
each level. During this same time frame, the Office of the General
Counsel implemented performance standards, individual work plans
and performance elements for its employees and established
standardized guidelines for supervisory appraisals. In l999, the
Office of the General Counsel held a major Investigation Training
Conference as well as several other training activities including,
a Conference on Quality and Representation, a Litigation Conference,
and three administrative conferences for its support staff.        The
Office of General Counsel requires its office managers to develop
training plans. All Office of the General Counsel senior executives
and Grade 14 and l5 personnel has been trained in coaching and
mentoring. The Office of the General Counsel also works very closely
with the Union of Authority Employees (Union of Authority Employees)
representatives in developing core curriculums and specific courses
for Office of the General Counsel employees as well as the development
of career profiles and GS-14 and below position descriptions.

The Office of the General Counsel has also established an Upward
Mobility Program for its administrative personnel based on the 301
skills series. The Office of General Counsel formulated this program
with the Human Resource Division and works with the Information
Resource Management Division to develop regional office managers
into computer experts. This will allow some valid progression for
the administrative office managers and provide them with essential
skills to progress within the Federal Labor Relations Authority or
other Federal agencies. All new supervisors are trained prior to
obtaining Senior Executive Regional Director positions. Currently,
the Office of the General Counsel is focusing on the supervisory
and leadership development of its GS-14's and l5's in anticipation
of several Regional Office Director retirements which are expected
to occur in the next few years. Senior executives in the Office of
General Counsel receive continuous executive training.
                       FOR OFFICIAL USE ONLY                       27
                       FOR OFFICIAL USE ONLY

As a matter of internal policy, the Office of General Counsel tries
to staff vacancies, especially senior vacancies, from within the
Agency. They have, in the past, hired several GS-14 from the
Authority. An Office of General Counsel senior manager stated that
the skills development of Authority GS-14 attorneys is different
from comparably graded Office of General Counsel GS-14 attorneys.
 This same manager stated that Authority attorneys tend to be graded
at higher levels than Office of the General Counsel attorneys.
Current Office of the General Counsel management does not support
“downgrading” as a solution when it hires attorneys from the
Authority. The difference in grade level and expertise sometimes
causes a morale problem among the lower graded attorneys in the Office
of the General Counsel. Over the last years, the Authority has tended
to fill its vacancies more from outside the agency rather from within
both in the legal and administrative areas.


     3.   Federal Service Impasses Panel

Because of the small size of Federal Service Impasses Panel,
management interface with its employees is enhanced by close
interaction and continuous communication. The Federal Service
Impasses Panel functions as a collegial group and extends its
interrelationships to social activities such as group luncheons,
group participation in after hour sports and social events. The
staff interacts constantly within the office as well as at scheduled
meetings and off sites. The Federal Service Impasses Panel Chair
has ensured that the administrative staff, as well as professional
staff and Presidential appointees, all feel they are essential and
vital to the mission. In spite of demanding private schedules, the
Presidential appointees make and take the time to serve as mentors
to the staff. Federal Service Impasses Panel management tries to
balance employees’ work and family life to the maximum extent
possible. All members of the staff use some aspect of a flexible
work schedule. Management also condones combining personal and
Federal Service Impasses Panel related travel, if advantageous to
employees (of course personal travel expenses are kept separate from
government reimbursable expenses.)    Federal Service Impasses Panel
management not only supports employee development, but also supports
both management and staff participation in Agency activities whenever
possible. Examples over the past year were participation in the
General Counsel’s All-Employee Conference in Mesa, Arizona, the 20th
Anniversary Training Conferences in Denver and Washington, and Take
Your Daughter to Work Day, held at Headquarters.      Federal Service
Impasses Panel employees have engaged in training over the past two
years which provided both new skills and management development.

                       FOR OFFICIAL USE ONLY                       28
                       FOR OFFICIAL USE ONLY


Federal Service Impasses Panel management invests both time and money
in developing their employees to the maximum. Federal Service
Impasses Panel management stated that retention of employees is a
problem because the grade structure for professionals is lower than
in comparable agencies and the private sector. Employees leave
because of better opportunities either in other Federal Labor
Relations Authority organizations, other Federal agencies or the
private sector. Management understands when its employees leave
for better opportunities and is supportive. Overall, Federal
Service Impasses Panel management is much attuned to the employee’s
needs and feels that the Agency, as a whole, has made great progress
over the last two years in institutionalizing employee development
programs and initiatives.


Union of Authority Employees

While the Federal Labor Relations Authority is not legally subject
to its own statute and is not required by law to have a union, it
does. This, in and of itself, is a positive investment in human
capital by management. The Union of Authority Employees has existed
since September 1984 and currently represents 127 Federal Labor
Relations Authority employees in bargaining unit positions.
Management involves the Union of Authority Employees in activities
that deal with employment. The Union of Authority Employees
involvement in Federal Labor Relations Authority employment
initiatives is ongoing. Collaborative efforts were incorporated
from the onset in the development of many employee related initiatives
within the Office of the General Counsel. The Authority also
involves the Union of Authority Employees in appropriate issues,
but sometimes, in the past, the involvement came at the last minute
according to former Union principals, making effective input
difficult. The Union of Authority Employees, through the Federal
Labor Relations Authority Partnership Council has, in the past,
contributed to the development of many of Federal Labor Relations
Authority’s human resource policies and programs. The Union of
Authority Employees has also been active in developing a training
program for regional representative specialists, career profiles
for professional staff and Individual Development Plans for the
Office of the General Counsel. Several successful collaborative
efforts of the Union of Authority Employees with the Office of General
Counsel set models for later Agency-wide programs such as the
establishment of the Employee of the Quarter Program, the Office
of the General Counsel Technology Committee, Core Curriculum
Committee and the Office of General Counsel Leadership Development
Program.
                       FOR OFFICIAL USE ONLY                       29
                       FOR OFFICIAL USE ONLY


Prior to the establishment of the Partnership Council in l995,
individual Memoranda of Understanding were entered into by the Union
of Authority Employees and Federal Labor Relations Authority
management to clarify intent and implementation of employee related
programs. A review of these documents revealed that some are more
than 10 years old and need either an update or deactivation since
evolving events have significantly changed circumstances.

Current Union of Authority Employees leadership appears to be
proactive and has concerns critical to the morale of lower graded
Federal Labor Relations Authority employees who, without a strong
Upward Mobility Program, basically have few if any opportunities
for progression. Current Union of Authority Employees leadership
felt that the Federal Labor Relations Authority Upward Mobility
Program has had limited success and needs strengthening. The core
problems appear to be limited positions and lack of vacancies in
positions that would be appropriate for an Upward Mobility Program.
 The program was active and more successful during former years when
positions were more ample. Nevertheless, revitalizing the program
should be an area of management attention.

Human Resource Division

During the last two years, there has been a continuous evolvement
of service, expertise, and responsiveness in the Federal Labor
Relations Authority Human Resources Division. Current management
has placed significantly more emphasis and visibility on human
resource support and service to its internal customers. During FY
98 and 99, there was practically a total re-staffing of the Federal
Labor Relations Authority Human Resource Division and a strengthening
of this important function with an orientation toward contemporary
human resource initiatives and customer service. The results of
these efforts appear to have generally improved services to employees
as well as management.

Most, if not all, of the Human Resource Division’s efforts and
accomplishments could be considered human capital investments.
Federal Labor Relations Authority’s Human Resource Division has
committed to improving both individual and organizational
performance by improving human resource practices and procedures,
improving both management and employee information products, working
closely with component managers, meeting program and employee needs,
providing competency based training programs and ensuring that the
Federal Labor Relations Authority uses the appropriate mechanisms
to recruit and retain a multi-skilled, diverse workforce which
successfully achieves the Agency mission.
                       FOR OFFICIAL USE ONLY                      30
                       FOR OFFICIAL USE ONLY

During FY 98 and FY 99, the Human Resources Division began tracking
and performing quality checks of appraisal and award determinations,
provided supervisors with tools and checklists for performance
management, revitalized the Drug Testing Program, conducted lunch
time brown-bag training and supervisory training, implemented Tier
II training, restructured the New Employee Orientation Program,
reexamined hiring strategies, improved the timelines in filling
vacant positions, and implemented a telephone process to in-process
regional employees. The Human Resources Division also developed
Human Resource material for new employees, provided expertise points
of contact for Human Resource programs, and administered Employee
Recognition Day.

Plans are in place to continue improving Agency hiring with a focus
on diversity and veteran preference recruitment to help the Federal
Labor Relations Authority meet affirmative action recruitment goals,
develop standard guidelines for selecting officials, develop a model
competency training plan for entry level attorneys and labor
relations specialists, and develop information and guidelines for
managers of new employees. The Human Resources Division’s work plan
indicates that it will continue and increase competency based
training, collect and analyze data to assess the quality of internal
and external training, develop support staff competencies and career
ladders, identify positions for upward mobility and revitalize the
existing Federal Labor Relations Authority Upward Mobility Program.
During FY 98 and 99, the Human Resource Division revised and issued
new policy, has continually issued guidance on personnel related
policies and has sponsored several training sessions related to
performance appraisals, retirement, and supervisory
responsibilities. The Human Resources Division has regularly
publishes information on topics of interest and concern to employees
in the Federal Labor Relations Authority newsletter.

Partnership Council - Management/Union Initiatives

The Federal Labor Relations Authority Partnership Council was
established in January l995, based on principles of mutual respect
between Federal Labor Relations Authority management and union
employees. The Partnership Council has focused on teamwork,
cooperation with the prime goal of enhancing the quality of Federal
Labor Relations Authority services and programs with the involvement
of Federal Labor Relations Authority employees in the work related
decision making process. Prior to the establishment of the
Partnership Council and since its inception, the Federal Labor
Relations Authority has entered into many memoranda of understanding
with the Union of Authority Employees developing work processes and
standards which have enhanced the Federal Labor Relations Authority
                       FOR OFFICIAL USE ONLY                     31
                       FOR OFFICIAL USE ONLY

workplace environment. Federal Labor Relations Authority
management and Union of Authority Employees representatives worked
together on issues which ultimately affected human resources. These
include:

Strategic Planning
Performance Management Plan
Alternative Work Schedule Program,
Implementation of Briefing/Issues Memoranda
Buyout Policy & Optional Retirement Authority
Organizational Structure of the Federal Service Impasses Panel
Bargaining Unit Status of Various Positions
Application of Standards to Case Writers
Drug Free Workplace
Travel/Per Diem for Management-Union Negotiations
Headquarters and Regional Office Space
Smoking Issues
Development and Implementation of Performance Standards
Travel Voucher Processing
Vacancy Announcement Process for Attorneys and Labor
  Relations Specialist
Compressed Work Schedule
Casual Friday Policy


Over the last two years, the Partnership Council has worked with
management in the development of core competencies, performance
management and development programs. Noted, however, is that the
Tier II Development Program was implemented by the Authority in spite
of the Union of Authority Employees’ protest. Another still
unresolved issue n between the Agency and the Union of Authority
Employees has been “Flexi place.”     The Federal Labor Relations
Authority Partnership Council was recognized recently by the
Association of Government Accountants as a “best practice” for its
work in implementing the Federal Labor Relations Authority
Performance Management Plan.


Equal Employment Opportunity Program

The Equal Employment Opportunity Program is an ancillary duty for
the Federal Labor Relations Authority Equal Employment Opportunity
Director and Equal Employment Opportunity Counselors. Each Federal
Labor Relations Authority facility has its own on-site counselor.
 In the earlier days of Federal Labor Relations Authority, Equal
Employment Opportunity was part of the Personnel Division, but was
separated as a result of perceived conflict of interest with such
                       FOR OFFICIAL USE ONLY                      32
                       FOR OFFICIAL USE ONLY

an affiliation. Equal Employment Opportunity functions are
performed as required in the Federal Labor Relations Authority and
the program is briefed to all new employees at the yearly Federal
Labor Relations Authority Orientation. Over the past two years,
the Director of Equal Employment Opportunity has been involved in
trying to get Union of Authority Employees agreement on Federal Labor
Relations Authority’s Equal Employment Opportunity policy
(outdated). The policy, revised and provided in draft to the Union
of Authority Employees in 1996 was never formalized. While current
Union of Authority Employees leadership has been proactive in dealing
with this new policy, recent changes in Equal Employment Opportunity
Commission policy now necessitate another rewrite of Federal Labor
Relations Authority’s policy.

During FY 98, there were five employees who used Equal Employment
Opportunity counselor services. According to the Director, Equal
Employment Opportunity, “two or three cases” went formal. The
Director of Equal Employment Opportunity stated that the majority
of cases that ultimately go formal involve external applicants for
Federal Labor Relations Authority jobs. He stated that internal
problems are usually resolved by the Equal Employment Opportunity
Counselors. The Director of Equal Employment Opportunity reports
Equal Employment Opportunity activities on an annual basis to the
Equal Employment Opportunity Commission. It appears that Federal
Labor Relations Authority’s major problem is not being successful
in reaching and recruiting minority professional populations but
this is not for lack of trying. The Equal Employment Opportunity
Director stated that Federal Labor Relations Authority was more
successful in the regional offices than in the Washington area in
recruiting minority professionals. The Director of Equal Employment
Opportunity also indicated that the Federal Labor Relations Authority
did not have this problem in the areas of administrative and support
functions.


Employee Assistance Program

The Federal Labor Relations Authority provides professional
counseling and referral service to its employees through the U.S.
Public Health Service’s Employee Assistance Program. Employees who
are having emotional, family, relationship, job and alcohol/drug
problems may voluntarily seek assistance through the Employee
Assistance Program. Counselor’s help employees assess problems,
provide problem solving and counseling and will refer and help select
a community source when required. Employee information is
confidential within the limits of the law. In general, information
can be released from the Employee Assistance Program only with written
                       FOR OFFICIAL USE ONLY                       33
                       FOR OFFICIAL USE ONLY

permission of the participant. The Federal Labor Relations
Authority Human Resources Division periodically distributes an
Employee Assistance Program newsletter to employees which provides
contemporary health and welfare information for employees. None
of the 36 employees interviewed disclosed using the Employee
Assistance Program so an evaluation of its merit could not be made
as part of this review.

Workplace Security and Safety

Workplace security and safety were primary concerns of Federal Labor
Relations Authority management during the latter part of FY 98 and
FY 99 due to several incidents at the Headquarters facility and
several threats to personnel at three Federal Labor Relations
Authority Regional Offices. As a result, the Inspector General,
Office of the General Counsel and Administrative Services Division
focused their attention to these issues. At the request of the
General Counsel, the Inspector General briefed all Headquarters and
five of the seven Regional Offices on Workplace Violence. At the
request of the Inspector General, the Administrative Services
Division arranged for an evaluation of Headquarters security by the
Federal Protective Service and for a security briefing by a Federal
Protective Service Security Officer. The Administrative Services
Division also provided guidance to personnel concerning admitting
the public to Federal Labor Relations Authority facilities. The
General Counsel included Workplace Violence as subject matter in
the Office of the General Counsel Manual and instructed Regional
Directors to keep records on all hostile threats and hostile or
unusual situations and to report such situations immediately to the
Inspector General. The Office of the General Counsel also addressed
security issues in its l999 Conference held at Mesa, Arizona, and
has devoted a full chapter in its manual to security issues. The
Office of the General Counsel has purchased cell phones for its
regional offices’ investigators.     The Inspector General also
established security “management contacts” with the U.S. Postal
Service which also has dealt with a significant amount of workplace
violence issues over the last two years and provided these contacts
to the Office of the Executive Director for further action.

Several security investigations were completed during the past two
fiscal years as a result of several thefts of personal property and
money at Federal Labor Relations Authority Headquarters. Employees
were reminded several times by the Administrative Services Division
to keep their personal property locked up and out of sight, especially
if they were leaving their work area. The Inspector General
periodically reviews Headquarters building after work hour access
records and requested that the Administrative Services Division
                       FOR OFFICIAL USE ONLY                       34
                       FOR OFFICIAL USE ONLY

inform the Headquarters building manager that cleaning personnel
who were assigned to the Federal Labor Relations Authority facilities
must have background checks. Also, during an FY 99 Internal Review,
the Inspector General noted that case records, containing sensitive
information were being left on counter or desk tops in unlocked
facilities. Appropriate management was advised that these records
should be placed in locked facilities when not in use and especially
after hours when Federal Labor Relations Authority personnel were
no longer present.

During FY 99, the Information Resource Management Division issued
a policy on Computer Security. This was another area needing
attention due to several minor incidents of improper use in FY98
as well as the fact that automated systems have become a primary
work tool containing sensitive information. A more in-depth look
at Federal Labor Relations Authority computer security will be
rendered in the spring 2000 by an audit. During FY 98 and FY 99,
no formal briefings were held on safety; however a monthly publication
on health and safety issues was distributed to all personnel.
Workplace safety and security are important factors in human capital
investment and should be continually monitored and referred to as
new information and practices evolve. More Federal Labor Relations
Authority management focus and employee exposure to security and
safety requirements should be rendered in the future to ensure maximum
protection and safety of Federal Labor Relations Authority personnel.


Health

The Federal Labor Relations Authority provides Health Care Services
for its Headquarters and Regional Office employees through an
interagency agreement with the Department of Health and Human
Services’ Public Health Service. The intent of this agreement is
to provide health care to employees by minimizing their time away
from work, thus reducing direct and indirect costs to the agency.
These services include acute care for minor illnesses and injuries,
individual health counseling, screening and prevention programs and
some occupational health and safety consultations on a walk- in and/or
scheduled basis. The Health Center also will administer personal
physician ongoing interventions such as blood pressure and glucose
monitoring, allergens, hormones and medication injections.
Federal Labor Relations Authority employees may also obtain disease
prevention immunizations such as influenza, diphtheria/tetanus and
pneumococcal, and participate in the Health Centers Health Screening
and Education Programs. Individualized health counseling is also
available. All health examination information is held in strict
confidence in accordance with the Privacy Act of l974. Information
                       FOR OFFICIAL USE ONLY                       35
                       FOR OFFICIAL USE ONLY

will be released only if authorized by the employee. The Health
Center also arranges for emergency ambulance transportation when
necessary, referrals to the Employee Assistance Program and referrals
to private physicians when appropriate.

An October l, l999 Addendum to the Interagency Agreement added
additional health services for Federal Labor Relations Authority
employees including tuberculosis screening upon request, an annual
risk appraisal, and hearing, glaucoma and pulmonary screenings, where
available. Also, the Division of Federal Occupational Health
provides health examinations and additional services (cancer
screening, prostate specific antigens, EKGs) as a supplemental
service and at a minimal cost to employees. During FY 99, the Federal
Labor Relations Authority purchased 12 examinations slots to use,
when appropriate, for its personnel. Twenty of the 28 employees
interviewed were not aware of the extensiveness (scope) of health
services available to them.


Technology and Tools

During FY 98, the Federal Labor Relations Authority spent $50,016.00
on equipment and furniture and $947,101.00 on computer technology.
During FY 99, the Federal Labor Relations Authority spent $71,444.00
on equipment and furniture and $668,246.66 on computer technology
(Computer technology costs include Y2K compliance expenditures for
hardware and software upgrades to ensure both modern technology and
Y2K compliance.) Software upgrades were made to all computers
converting from Word Perfect 6 to Word Perfect 8. Training on the
new software was provided to all Federal Labor Relations Authority
personnel. Federal Labor Relations Authority purchased new
furniture for the relocated Washington Regional Office costing
approximately $39,000.00 and a new copier was purchased for the San
Francisco Regional Office. The Administrative Services Division
had recommended additional furniture and major equipment purchases
for FY 98 and FY 99 to further enhance Federal Labor Relations
Authority’s workplace environment, but budget restrictions prevented
such purchases. These purchases are being resubmitted by the
Administrative Services Division in the FY 2001 budget submission.

Quality of Work life

The general environment of the Federal Labor Relations Authority
is philosophically collegial, progressive and encourages innovation,
participative dialogue and teamwork. Yet, interviews with
Headquarters personnel and the regional office surveys revealed that

                       FOR OFFICIAL USE ONLY                      36
                       FOR OFFICIAL USE ONLY

the focus of many employees remains rather narrow in scope and lies
within their assigned organizational entity rather than on the Agency
as a whole. As in every organization, Federal Labor Relations
Authority managers have different management styles which range from
a contemporary mode of total delegation and empowerment of employees
to the more traditional rigid control and micro management. This
review, as well as previous internal reviews conducted during FY
98 and 99 support that morale and productivity are better when
employees are given as much independence as possible, are empowered
and given responsibility and accountability and decision making
capabilities, and are appropriately acknowledged for their efforts.
While much progress has been made in the past few years to create
a “one agency concept” and a “corporate mentality” among management
and employees, distinct management philosophies still exist among
the three major organizational entities (the Authority, General
Counsel and Federal Service Impasses Panel) which influence the
extent, nature and impact of human capital investments as well as
Agency bonding.

The statutory structure of the Federal Labor Relations Authority
is not the most conducive for a corporate mentality because; in
essence it creates three distinct and independent components. It
also creates an Agency “Chair” position in the Authority which has
the responsibility to function as the “CEO” of the entire
organization. The three Presidential Appointees who head the major
organizational entities have a respectful relationship and have
helped improve Agency-wide bonding. While employees seemed bonded
to their own organizational entities, component attitudes of
separateness, competitiveness and even some resentment was noted
among both managers and employees during Headquarters interviews
and Regional Office surveys. Further insight into this matter will
be given under Interviews with Personnel, below.

Federal Labor Relations Authority management, as a whole, is
sensitive to its employees’ personal and private life obligations
and works closely with employees to accommodate these needs. This
perspective is also found among many employees who spontaneously
help fellow employees who are having medical or personal life problems
through leave and monetary donations as well as personal assistance.
The Federal Labor Relations Authority has implemented several Federal
government initiatives to improve the work life of its personnel.
Some of these initiatives include Alternative Work Schedule, Casual
Friday, Take Your Daughter to Work Day, Government Charge Card Program
(now required), and Tier Development Programs, local travel
reimbursement from Imprest Fund and over the counter commercial small
purchases form Imprest Fund. A majority of the employees interviewed
stated they would like to see Flexi place and Transit Subsidy Programs
                       FOR OFFICIAL USE ONLY                       37
                       FOR OFFICIAL USE ONLY

implemented as well. Management plans to implement the Transit
Subsidy Program in the next few months. The latter are already active
programs in many Federal agencies. Federal Labor Relations
Authority management and employees have also been very generous to
the Combined Federal Campaign and private charities.


Interviews - Federal Labor Relations Authority Personnel

During the course of this review, 36 interviews were held.
Discussions were also held with principals from the Office of
Management and Budget, the General Accounting Office, Brookings
Institute and Library of Congress. Attorney grade and work structure
discussions were held with appropriate principals from the National
Labor Relations Board, Office of Special Counsel and Merit Systems
Protection Board. Twenty-nine interviews were initially held with
randomly selected management and working level employees at
Headquarters and the Regional Offices (10 mangers and l9 employees.)
Additional and/or follow-up interviews were held with 9
employees/managers prior to the formulation of this second draft
to revalidate information and statistics. Standardized questions
(Attachment 5 and 6) were initially asked of all employees
interviewed. Significant comments and concerns that evolved through
interviews and surveys were discussed more fully and the issues
validated by discussions with other employees to ensure issues were
not an isolated viewpoint. Interviews with personnel, surveys
voluntarily mailed back by randomly selected Regional Office managers
and employees (some of which were discussed further if employees
chose to identify themselves) surfaced several common perspectives
about the Federal Labor Relations Authority’s human capital
investments.

While the comments of 36 employees merely account for 12% of the
Federal Labor Relations Authority population and are not intended
to represent the entire population of the Federal Labor Relations
Authority, it is important for management to be aware of some of
the concerns of their employees and focus on eliminating conditions
or perceptions which may contribute to such perceptions. It is a
fact of human behavior for people to focus and concentrate on the
negative rather than acknowledge of the positive when they perceive
they have not received equitable treatment. It is very important
for management to address these perceptions by either providing the
information necessary to change incorrect perceptions, or eliminate
the causes, if they exist, in order to foster and maintain a highly
motivated workforce and quality work environment. With this in mind,
the following issues, surfaced through employee interviews and
surveys are being communicated with the acknowledgment that they
                       FOR OFFICIAL USE ONLY                      38
                       FOR OFFICIAL USE ONLY

may not be reflective of the majorities Federal Labor Relations
Authority workforce.

1. Four relatively new Authority professional legal employees
stated that while they felt their grades were lower than comparable
grades in other Federal agencies, they have received excellent
training and mentoring during their employment at the Federal Labor
Relations Authority, thus far. They felt that training within their
organizations was fairly distributed among all skills series. These
new employees felt that the orientation given by the Human Resources
Division was very good, but that they needed and would benefit from
more technical orientation and mentorship during their first 3 months
of employment. They felt that the Federal Labor Relations Authority
facilities, technology and tools provided to them were ample to
perform their jobs. Three of these employees were impressed by the
degree of empowerment and supervisory mentoring they received. Three
of these relatively new attorneys commented that they felt their
journeyman level grades should be higher because they had law degrees.
 One compared the journeyman level grades of the legal professionals
to those of the higher professional administrative support functions
staff.

2. Six employees interviewed in Authority/Federal Service Impasses
Panel clerical and administrative support positions felt that the
Agency showed concern only for the development of legal and labor
relations specialist personnel and showed little concern for the
development of administrative clerical support personnel.      Five
of these same Authority employees and two Authority managers stated
that vacant staff positions for the Authority were usually filled
with outsiders and those internal administrative personnel, even
with many years of experience with the organization, were rarely
selected. Four Authority minority administrative personnel pointed
out that until an Equal Employment Opportunity complaint had been
filed in l995, no existing minority administrative staff person was
selected for higher internal staff positions within the Authority.
 Since that complaint was filed, a few individuals have progressed
into higher positions. Generally, these encumbered positions were
upgraded and the employees did not progress competitively, but on
the basis of desk audits. Three Authority employees pointed out
that Authority senior management brought in their own administrative
employees as C Schedule hires, thus limiting the ability for tenured
administrative support clerical and para-professional staff to
progress. Three Authority administrative support clerical
employees stated that promotions were not based on level of work
but were more dependent on the Office of the Chair’s, clerical
employee’s advancements. Follow-on discussions with personnel in
both the Office of the General Counsel and the Federal Service
                       FOR OFFICIAL USE ONLY                       39
                       FOR OFFICIAL USE ONLY

Impasses Panel did not validate similar issues being a concern in
these organizations.

3. Two Authority administrative support clerical support and two
Authority para-professional personnel stated that, while they had
training in basic skills directly related to their current positions,
they were repeatedly denied any training that could lead to
professional or higher level administrative jobs. Two of these same
employees mentioned specific examples relating to the progression
of non-minority administrative support personnel and the lack of
similar progression of tenured Authority minority administrative
support personnel. One administrative support individual that was
in the Upward Mobility Program stated it took 5 years to achieve
one grade increase, even though performance evaluations for each
year were satisfactory. Two Authority minority administrative
support and one administrative support clerical personnel stated
they did discuss their issues of concern either with their immediate
supervisor, a union representative or Equal Employment Opportunity
Counselor. All three stated that no redress was provided. One
individual stated that when these concerns were articulated to
management, a subsequent personnel action to abolish the individual’s
position was initiated in reprisal. Two Authority minority
employees stated that they were reluctant to use Equal Employment
Opportunity grievance procedures because they felt their
confidentiality was compromised at the onset.

These issues did provoke a more in-depth evaluation of the morale
of Authority minority administrative support and clerical personnel.
Follow-on discussions validated that this group of employees, had
the perception that they were being denied opportunities to receive
development, training and progress. While some of these employees
stated they felt there were Equal Employment Opportunity implications
in the distribution and allocations of opportunities for training
and advancement among the Federal Labor Relations Authority’s lower
graded clerical and para-professional personnel, this review did
not produce substantiation of this perception. Nevertheless,
collectively, the morale and attitude of these interviewees toward
the organization was negative.

4. Three professional employees and four administrative support
personnel from the Authority and three Regional Office professional
employees stated that they felt the awards system was more
“political” than reflective of true performance. They stated in
various ways that senior employees were often “rewarded excessively”
for the actual work performed by junior employees who received “token
awards.” Three journey level Authority employees interviewed felt
that awards were not equitable because their supervisors either did
                       FOR OFFICIAL USE ONLY                      40
                       FOR OFFICIAL USE ONLY

not understand the basis for specific awards or did not have or take
the time to justify awards for their deserving personnel. Discussion
with five line managers validated that they had differing perceptions
of the purpose of the various awards and criteria for extraordinary
performance. Standardizing criteria for awards would assist
supervisors in making more equitable determinations across the Agency
but, as mentioned in the discussion under the Employee Recognition
and Awards Section on pages 15 and 16, subjectivity cannot be totally
eliminated.

5. Fourteen of the employees interviewed felt the “pass/fail”
evaluation system did not reflect their true performance and
commented that this type of performance appraisal could be
detrimental rather than an asset should they wish to apply for a
new job either in or external to the Agency. They also felt such
a system made performance appraisals an easier task for management
and enhanced management’s ability to eliminate employees, but did
not benefit the employees. Several of these same employees did not
like the previous five tiered system either.

6. Not all employees had Individual Development Plans (IDP).
Bargaining unit employees who were interviewed (primarily in the
Office of the General Counsel regional offices) had them. The
Director of Human Resources stated that while IDP’s were encouraged
for all employees, they were not currently required for employees
at or above the journey level.

7. Three Authority managers commented on Federal Labor Relations
Authority’s tendency to go outside to hire professional personnel
rather than “give someone in-house the opportunity.” This comment
applied to legal as well as administrative support functions. They
stated that this practice has a negative effect on employee morale.
While acknowledging that there are many qualified external
candidates, these managers both felt that Federal Labor Relations
Authority personnel work very hard and should be rewarded by being
selected to fill internal higher graded positions, especially because
there are very limited growth opportunities in the Agency. One
Authority manager stated that Federal Labor Relations Authority
employees who applied for internal vacancies were “treated like the
general public,” and at the very least, should receive a personalized
call thanking them for their interest when they were not selected
for an internal vacancy.

8. One new Authority hire, which has just    completed the first year
at Federal Labor Relations Authority, was    very satisfied with the
mentorship and extensive training received   over the past year. The
new hire did state that her situation was    not reflective of many
                       FOR OFFICIAL USE ONLY                      41
                       FOR OFFICIAL USE ONLY

new entry level professional hires who felt that they were “thrown
into technical work too soon” and did not have sufficient
organizational and technical orientation or mentorship.” Another
recent hire coming from a more structured Federal environment
expressed pleasure and delight to be working in a collegial
atmosphere, felt much more independence and empowerment and was
pleased with the broad scope of responsibilities which replaced one
narrow functional area of responsibility in the former agency. Still
another commented that the Federal Labor Relations Authority managed
its resources more restrictively than other agencies and that it
tended to bypass initiatives supported by most other Federal agencies
which would provide compensation for its lower graded staff. The
employee named the Transit Subsidy Program and Flexi place Program
as examples.

9. Interviews with four tenured Headquarters professional employees
who have had positions in more than one Federal Labor Relations
Authority organizational entities stated that there were distinct
differences in management styles and employee morale among the
Federal Labor Relations Authority components. The Office of the
General Counsel received the most positive comments in terms of
contemporary management practices, employee independence, employee
development, empowerment and positive work environment.

10. Four professional interviewees (from all three components)
commented on Federal Labor Relations Authority’s tendency to hire
too many attorneys for the existing workload and felt the Agency
would be better staffed if more labor relations specialists (vice
attorneys) were hired.

11. Not all employees interviewed (eight) were aware of Federal
Labor Relations Authority’s Upward Mobility Program or Tier Program.
These were predominantly new employees or Office of the General
Counsel Regional Office employees.

12. Three Authority management interviewees stated in various ways
that they did not feel that executive management looked at employees
as assets and that there was very limited personalization and
communication among the different elements of the Authority. They
stated there was little unity among management and this lack of
synergy spilled over to affect employee morale. Two Authority
managers and one Office of the General Counsel Regional Office manager
articulated that retention of employees and keeping their assignments
interesting and varied was their biggest challenge. One Authority
employee commented that while the Federal Labor Relations Authority



                       FOR OFFICIAL USE ONLY                       42
                       FOR OFFICIAL USE ONLY

provided modern technology, statistical data was not consistent and
ZYFIND (no charges for use) was not kept current enough for valid
legal case research.

Inspector General’s Conclusion:

Government is complex and government management systems, of which
human capital investment is one, are probably the most complicated
to deal with because results are always evaluated subjectively.
The Federal Labor Relations Authority’s primary mission is to ensure
that Federal employees receive equitable treatment in the Federal
workplace. Its program is people and the fact that its budget
appropriations are almost all payroll support this concept. Though
small and strategically staffed, the Federal Labor Relations
Authority has implemented regulatory programs and performs
administrative support activities much the same as those agencies
which are 5 times the size.    For such a small agency, the Federal
Labor Relations Authority has many initiatives which can be viewed
as sound investments in its human capital. This is important and
noteworthy. Because of its unique mission, the Federal Labor
Relations Authority must create, place a visible emphasis on, sustain
and preserve itself as a role model agency in human capital
investment. To do this, the Federal Labor Relations Authority should
continue focusing on, increase the visibility of, and correct any
shortfalls in its agency-wide human capital oriented investments
and initiatives.

While the Federal Labor Relations Authority has made some notable
efforts in human capital investment, the majority of the “visible”
effort so far has focused on its professional workforce. As hard
as an organization may try to improve and implement tools and
techniques which improve operations and the quality of work life
for its personnel, political and fiscal realities sometimes restrict
good intentions. Unfortunately, in spite of management intentions
and efforts to acknowledge and recognize its personnel for their
contributions, the current Federal Labor Relations Authority
environment contains a segment of personnel who have lost their trust
in management. Since lack of trust is usually followed by a
diminution in performance, intentional or non-intentional, it hurts
both the individual and the agency. Federal Labor Relations
Authority management attention which has been primarily focused on
professional employee developments must now focus its attention to
ensuring that its investment in human capital is more equitably
distributed among its legal professionals as well as its
administrative professional support and clerical personnel.


                       FOR OFFICIAL USE ONLY                      43
                       FOR OFFICIAL USE ONLY

Another human capital area where Federal Labor Relations Authority
management attention needs to be focused is on the retention of
professional legal employees. Discussions with the Office of
Personnel Management principals affirmed that most of today’s college
school graduates enter the government because they have a genuine
desire for public service, they want a respectable position and a
limited work week, and they know that they will obtain good training
and personnel benefits at no or little cost to them. But many of
them also feel that there are few incentives for them to remain in
government after their training years are over. Recent studies have
revealed that workers age 45 and over comprise 44% of the Federal
workforce. Over the next decade, Federal agencies will experience
the effect of the retirement of a significant amount of its expertise
workforce. Recruiting the development of corporate expertise and
the retention of new personnel should be a major concern of
management.

Many younger employees leave government service because they feel
they must “wait their turn” for higher positions of responsibility,
suppress their innovation and independence, and accept the fact that
their efforts may not be recognized or rewarded appropriately until
they achieve senior status. Even though government operations have
been significantly “reinvented” many young workers view the
government system as one which is primarily rooted in
micro-management and pays less money than private sector
counterparts. Even with the use of sophisticated recruiting
methods, there is no guarantee that after significant investments
are made in entry level personnel, the organization will have enough
“incentives” to retain them. The reality may be that the Federal
Labor Relations Authority may be losing their best and the brightest
to other agencies or private sector corporations who have more to
offer after the Federal Labor Relations Authority has made a
significant human capital investment.

This review did support that the Federal Labor Relations Authority,
in most instances, has the intent and is being as successful as it
can be in obtaining a “return on its investments” in human capital.
As noted in the text above and reiterated in some of the findings
and recommendations, there do a few areas need more management
attention over the next few years to ensure that they are doing
everything possible to get a return on their investment? Money
invested in training, mentoring, employee development, special
workplace tools etc. can become a human capital loss instead of a
human capital investment if the Federal Labor Relations Authority
fails to retain its tenured and trained personnel. When people
transfer to other Federal agencies, management may be able to
rationalize the loss by “we ultimately all work for the same boss”
                       FOR OFFICIAL USE ONLY                      44
                       FOR OFFICIAL USE ONLY

but when an Agency loses personnel in whom they have invested
considerable time and money to the private sector, or lose employees
to other Federal agencies in less than three years of their hiring
date, this rationalization does not work from a cost benefit
perspective. The bottom line is that when an organization loses
personnel, be it one or one hundred, it loses its capital investment.
If the Federal Labor Relations Authority cannot provide progression
and future growth for its employees, it must find a way to provide
other visible and meaningful incentives to retain its employees.
The Federal Labor Relations Authority does do some of this now
(collegial environment, family needs orientation, flextime, employee
recognition and awards, legal professional employee development,
etc.”). Similarly “other amenities” could be developed to provide
additional incentives. For example, the Federal Labor Relations
Authority could increase its empowerment of employees, create more
“rotational positions”, arrange for details to other regulatory or
quasi-judicial agencies, increase sources of recognition for
deserving working level employees, implement across the board transit
subsidy, Flexi place, etc. Accepting the reality that the Federal
Labor Relations Authority is a small agency with a small and
restrictive budget, which primarily supports and invests in its
personnel, does not diminish the fact that the Federal Labor Relations
Authority is incurring significant losses in time, money and
expertise when it does not keep its personnel beyond the “learning
curve” time.

Another area which would benefit from more management attention is
mentoring. While it appears that most Federal Labor Relations
Authority organizational entities engage in the mentoring process,
it would benefit both the agency and employees if Federal Labor
Relations Authority supervisors continued to perform visible
mentoring with a contemporary perspective and guide employees out
of the bureaucratic box of behavior-based training into training
which builds cognitive and critical thinking and analytic skills
and helps employees increase their personal motivation, innovation,
and critical thinking. As the “education bar” rises as a result
of globalization, technology advancement, a redefined, reinvented
and refined government, it is important for the Federal Labor
Relations Authority to keep its employees educated on the “cutting
edge” in order to insure and protect its merit, productivity, and
customer satisfaction.

This review also revealed that the Federal Labor Relations Authority
has several employees primarily in Authority administrative support
clerical and para-professional positions that are unhappy and feel
they are being ignored and considered secondary to the professional
and legal staff. Ironically, whereas Federal Labor Relations
                       FOR OFFICIAL USE ONLY                       45
                       FOR OFFICIAL USE ONLY

Authority professional attorneys are, for the most part, lower graded
than comparable agencies’ attorneys, the Federal Labor Relations
Authority administrative support clerical positions are more highly
graded. While “perceptions” are real to the perceiver and often
caused by the lack of information, this review also revealed another
side to this. Among this particular segment of personnel, there
also appeared to be an attitude of “victimization” and “entitlement”
which almost superseded the importance of a work ethic and an
employee’s obligation and responsibility to the organization.
Several of these employees were very vocal in stating what they did
not have or were not given but much more reticent or at a loss for
words in discussing what they were giving or should give back in
return. Some of these same employees also did not seem to understand
that they had some self responsibility for their development and
progress and an obligation to “earn” their salaries. Also noted
during interviews in some very candid discussions with several
Authority managers was reluctance by some supervisors to communicate
expectations and deal with performance and morale issues with
employees when they first occur. Thus, some Authority employees
may have merely evolved with the Federal Labor Relations Authority
in time and perhaps with increased grades and duties, but not with
more skills, and responsibility. This review did reveal that both
of these perspectives, justified or not, are having negative effects
on morale in three offices of the Authority and should be addressed
with more training and guidance, and the continuous management and
supervisory communication of expectations/feedback on results to
employees in a constructive and productive manner.    Just as leaders
need to be developed to maintain a viable organization, so does the
workforce and, perhaps, even more so because working level employees
provide the initial substance for the products and/or services which
formulate the foundation and accomplishment of the mission.
One other area of concern, surfaced during this review, is the
fragmentation of the Federal Labor Relations Authority organization
and its effect on its human assets. As previously mentioned, the
statutory structure of the Federal Labor Relations Authority is not
conducive to a synergistic and holistic organization. The
operational autonomy of the three major organizational components,
especially the Authority and Office of the General Counsel (which
manages administrative functions of the 7 Regional Offices)
contributes to the infrastructure perception that the Federal Labor
Relations Authority is actually three agencies in one. According
to General Counsel, his statutory responsibility and direct authority
over Office of the General Counsel employees, requires this
management of administrative and human resource operations, but in
no way replicates functions performed by the administrative staffs
in the Office of the Executive Director. Thus, the Office of the
General Counsel has dedicated resources for resource and
                       FOR OFFICIAL USE ONLY                      46
                       FOR OFFICIAL USE ONLY

administrative function management and also has a resource who
actively serves as proponent for resource allocations. The Federal
Service Impasses Panel’s Executive Director does perform this
“lobbying” function in the budget and resource allocation process.
 The Executive Director of the Authority does not and cannot perform
an advocacy function for the Authority because his position supports
the Chair who functions as the “CEO” of the entire Agency. The
Authority would certainly benefit from a designated proponent.

While no actual replication of programs administered by the Human
Resource Division were noted in the operations of the Agency
components, some of the human resource work performed by the Office
of the General Counsel, such as workload analysis, position
classification, extensive internal mentoring and training, should
be provided for all employees in the entire Agency. Although much
improved over the last few years, the reality that the Authority
and Office of the General Counsel don’t always “read off the same
sheet of music” does diminishes a corporate perspective and has
resulted in the creation of “different programs, different standards”
and distinct differences in the management and development of Agency
personnel. While it is recognized that the different components
have different missions and requirements, more of a management effort
to reach consensus on proposed Agency level initiatives and programs
must be made to ensure equal treatment and similar opportunities
for all employees in the Federal Labor Relations Authority.

The Federal Labor Relations Authority has not used human engineering
tools and techniques such as position management and workload
breakdown and analysis as an agency wide practice and basis for
staffing and personnel assignments. While the Office of the General
Counsel has used some workload analysis and position management to
staff some of its vacancies during the last five years, the Authority
and Federal Service Impasses Panel tend to staff vacant positions
in a more “traditional” way.    In the Authority and Member Offices,
senior officials are assigned support staffs and, in some instances,
even have their staffs reduced without a methodical assessment of
the actual workload. As the result of information surfaced from
this review, as well as observations during previous Inspector
General reviews, it appears that there may not be enough normal
workload to keep some organizations’ support staff busy for an 8
hour day while in others, there appears to be more workload than
staff. While at this point, without a detailed workload/staffing
analysis, this can only be surfaced as an observation, I believe
the Federal Labor Relations Authority would benefit from a work
breakdown and staffing analysis to ensure it is making the “best
use of “dollars” and human resources.    In an organization as small
as the Federal Labor Relations Authority, management cannot afford
                       FOR OFFICIAL USE ONLY                      47
                       FOR OFFICIAL USE ONLY

to waste its money or manpower. It would be exceedingly beneficial
for the Federal Labor Relations Authority to use position management
and focus on critical workload breakdown and analysis to create,
classify and staff positions accordingly. This would also add more
substance and validity to Federal Labor Relations Authority’s
strategic planning, both short and long term.

Security, safety and health issues are also very important aspects
of human capital investment. While these programs are in place,
the Federal Labor Relations Authority needs to put more “teeth” and
emphasis on its security and safety programs and make sure that
employees are aware of all of the health care benefits and services
available to them as Federal employees. Over the last few years,
workplace hostility, personal property thefts and unauthorized
access to facilities have emerged as important issues for management
attention.    Agency-wide annual briefings or seminars on safety,
security and health would be beneficial to management and employees
alike, are certainly initiatives which help protect human capital
assets and could lessen the occurrence of malicious incidents. More
interaction with other small agencies and agencies which have been
dealing with similar issues such as workplace violence would help
the Federal Labor Relations Authority strengthen its existing
programs.

In conclusion, it is obvious that the Federal Labor Relations
Authority demonstrates the importance of its employees work life
and work environment by trying to keep equipment and tools state
of the art, providing professional looking offices, and providing
ample software access to programs that support both legal and
administrative functions. It maintains visible employee
recognition and awards program, is family life oriented, maintains
an active partnership with the Union of Authority Employees, has
a collegial management philosophy and promotes a teamwork oriented
environment. Federal Labor Relations Authority leadership has
successfully maintained a viable organization in spite of significant
downsizing, budget cuts, and internal component management
differences.

An innovative organization such as the Federal Labor Relations
Authority must lead the way and be a model in recognizing that human
capital is an asset, and continue to visibly commit to strategic
investments in the workforce. Policy and procedural strategies
should support the maximum delegation of authority and independence
to qualified employees, strong team building and participative
decision making, and strong and open systems for communication. The
Federal Labor Relations Authority must also support a strong
oversight system to support accountability and the astute use of
                       FOR OFFICIAL USE ONLY                      48
                       FOR OFFICIAL USE ONLY

resources. It must also continue to attract and retain a skilled
and cohesive workforce. While it is obvious that there is some
important work still to be done in the area of human capital
investments, for the most part, the Federal Labor Relations Authority
has been progressive and focused on in its human capital investment
initiatives. With continuing focus on human capital investments,
a corporate management synergy, and attention to a few areas of
employee concern, the Federal Labor Relations Authority could very
well be a forerunner in the current Federal environment in the area
of human capital investment.


                    Summary of Best Practices:

The Federal Labor Relations Authority general “quality and collegial
work life” environment

The Federal Labor Relations Authority’s management’s sensitivity
to employee’s personal and family needs

The Authority’s internal detailing of employees

The Office of the General Counsel employee development and focus
on training

The Office of the General Counsel‘s focus on internal hiring

The Office of the General Counsel general work environment.

The Federal Service Impasses Panel’s mentorship and human asset
orientation

Human Resource Division’s efforts toward improving internal customer
service orientation

The Administrative Services Division’s focus on its employees


Summary of Vulnerabilities:

Federal Labor Relations Authority employees appear to lack a
corporate perspective.

Low professional grading may be impacting the hiring and retention
of expertise personnel and restricts development of future
“corporately knowledgeable” management.

                       FOR OFFICIAL USE ONLY                      49
                       FOR OFFICIAL USE ONLY


Position Classification, staffing and allocation of human resources
is not correlated to workload throughout the Agency.

The Upward Mobility Program needs more emphasis to provide growth
opportunities for administrative support and clerical personnel.

There appears to be a morale problem with a segment of administrative
support clerical and para-professional personnel in Authority.




                       FOR OFFICIAL USE ONLY                      50
                       FOR OFFICIAL USE ONLY

                   Findings and Recommendations


As a result of this review, the Federal Labor Relations Authority’s
Inspector General has compiled and substantiated the following
findings and makes the following recommendations. It should be
understood that there are some findings which are not applicable
agency-wide or to all three components. In those cases, the
exceptions are noted in parenthesis after the recommendation.


1. Finding:      The Federal Labor Relations Authority may not be
achieving a maximum return on its investments in human capital.
Although Federal Labor Relations Authority’s separation rate is not
much notably higher than comparable Federal agencies, the continuing
rapid turnover of professional (legal and administrative) personnel
during the last two years is not cost beneficial to the agency,
especially in view of the Federal Labor Relations Authority’s
restrictive budget and unique mission.

Recommendation:

a. Director, Human Resources Division conduct exit interviews with
departing employees, track the reasons for employees leaving the
Federal Labor Relations Authority, and provide an annual report and
trend analysis to senior management at the close of each fiscal year,
or as requested. (The Office of General Counsel is currently
conducting telephonic interviews with its employees who left in FY99
to determine the reasons why they chose to leave.)

b. Federal Labor Relations Authority management, with assistance
from the Federal Labor Relations Authority Partnership Council,
research and develop employment retention incentives which are cost
effective, benefit the agency mission and serve as incentives for
the retention of Federal Labor Relations Authority employees.


2. Finding: The Federal Labor Relations Authority, when compared
to similar quasi-judicial regulatory agencies, generally hires its
legal professionals at lower entry level grades and retains them
at a lower journey level. This may be a contributing factor to
Federal Labor Relations Authority’s inability to retain its younger
professional staff.

Recommendation: Federal Labor Relations Authority management, with
the assistance of the Human Resource Division Director review, the

                       FOR OFFICIAL USE ONLY                      51
                       FOR OFFICIAL USE ONLY

level of work requirements for entry level and working level attorneys
and revise, if appropriate, the Federal Labor Relations Authority
grade structure so that it is more comparable, especially at the
working level, to other Federal Agencies performing similar work.
Consideration must be given to the fact that Authority entry level
attorneys perform different types of work (case writing, research)
than those assigned to the Office of the Solicitor and Office of
the General Counsel Regional Offices (investigate, mediate,
litigate) and the Federal Service Impasses Panel (investigate,
mediate). Consideration should also be given to the fact that
Federal Labor Relations Authority attorneys are currently designated
as excepted service which provides more flexibility in pay by
eliminating time in grade requirements for progression.

3. Finding:     Federal Labor Relations Authority officially
budgeted a little over 1% of its allocation for employee training
during the past two fiscal years. While this percentage does not
represent the actual Agency expenditure, the “official” 1% allocation
($500.00 per employee) does not publicly support a major commitment
to human capital investment and the continuing development of
employees. While Federal Labor Relations Authority personnel policy
recommends Individual Development Plans, it does not require them
for employees GS-13 and above. The Federal Labor Relations Authority
may not be obtaining maximum benefits from external training by not
requiring supervisor-employee discussion of completed training or
“peer sharing” of information.

Recommendation : Federal Labor Relations Authority officially
budget 3% of its total appropriation for employee training, require
individual development plans for all General Schedule employees,
and encourage supervisory discussion with employees after the
completion of training, and peer sharing of information acquired
during training to get maximum return on training investments.

4. Finding: Federal Labor Relations Authority management has
focused on the development of its professional staff, but has not
placed a comparable emphasis on the development of its administrative
support para-professional and clerical staff.

Recommendation:

a.    Federal Labor Relations Authority revitalizes the Upward
Mobility Program and focus on developing an agency-wide program for
the development of administrative support para-professional and
clerical employees.


                       FOR OFFICIAL USE ONLY                       52
                         FOR OFFICIAL USE ONLY

b.   As vacancies occur in the Authority, Office of the General
Counsel (Headquarters) and Federal Service Impasses Panel, designate
at least two competitive (and rotational, as feasible) Upward
Mobility positions, GS-5/7/9/11 (one dedicated toward development
as a Labor Management Specialist or Paralegal Specialists and the
second toward development as an Executive Assistant (exposure to
all aspects of administrative operations.) All upward mobility
positions should be announced and open to all Federal Labor Relations
Authority employees.

5. Finding:    Not all Federal Labor Relations Authority supervisors
understand the extent of their roles in performance management or
understand the differences among the Federal Labor Relations
Authority performance and recognition awards and the criteria for
those awards. In some instances, supervisors do not appear to take
the time to appropriately evaluate, recognize and communicate
extraordinary or diminishing performance. This is occurring in
spite of Human Resource Division policy on Performance Management
and on-site (Headquarters) Performance Appraisal training.

Recommendation:

a.     Federal Labor Relations Authority Human Resource Division
       continues efforts to educate Headquarters and regional
       supervisory personnel on their obligations and responsibilities
       for personnel management and administration and performance
       appraisals.

b.     Federal Labor Relations Authority second line supervisors
       ensure that all first line supervisors have a human resource
       management performance element and are rated on their
       supervisory and mentorship performance as well as technical
       and program duties.

     c. Director, Human Resources Divisions and/or organizational
        component management plan activities, briefings, seminars and
        organizational off-sites which foster communication between
        employees and their managers, provide a forum for a realistic
        discussion of management and employee rights, responsibilities
        and expectations.


6. Finding:    New entry level professional hires require ‘technical
training’ organizational exposure, statute orientation and
mentorship during the first several months of employment. Not all
of them are receiving this in a timely manner. New hires would

                         FOR OFFICIAL USE ONLY                     53
                       FOR OFFICIAL USE ONLY

benefit from more focused mentorship during the first year of
employment. While the Office of the General Counsel has a formal
internal technical training program, other Federal Labor Relations
Authority organizational entities do not.

Recommendation:    All Federal Labor Relations Authority
organizational elements develop and provide their new employees with
an internal technical orientation, separate and apart from the
general annual New Employee Orientation. This internal technical
training should be provided within 30 days of a new employee’s entry
into the Federal Labor Relations Authority. Managers, or
experienced staff members should be assigned to mentor and help new
employees assimilate and adjust to the new environment. Specialized
technical training and major workload assignments should follow only
after the internal technical training has been completed.

7.   Finding

Federal Labor Relations Authority does not use position management
and workload analysis as an agency-wide practice to determine hiring
and staffing needs, positions classifications, grade level or
resource allocations.

Recommendation

Federal Labor Relations Authority Human Resource Division conduct
(or procure an independent contractor to perform) position management
reviews and workload analysis of vacated positions prior to rehiring
until all positions are validated and perform a workload analysis
of all Federal Labor Relations Authority organizational units to
ensure proper position classification, grade levels and allocation
of personnel to support actual, reoccurring mission essential
workload.


8.   Finding: Some Federal Labor Relations Authority managers
require strengthening of human resource management and
supervisory/mentor skills.

Recommendation:

a. Require all Federal Labor Relations Authority managers and
supervisors of personnel to have prior to, or acquire in the first
three months of their acceptance of a supervisory position, training,
and education in contemporary management skills and human resource
management. All current supervisors and managers who have not had

                       FOR OFFICIAL USE ONLY                      54
                       FOR OFFICIAL USE ONLY

such training in the past should be required to take such training
within 6 months of the issuance of this report.

b. Sponsor periodic management meetings and invite community
speakers knowledgeable in contemporary human resources matters,
behavioral science, Federal management practices and good government
to speak to Federal Labor Relations Authority managers (all levels)
to enhance their Federal management and supervisory perspectives.


9. Finding: While attention was given to security and safety issues
during FY 98 and FY 99, a more proactive and more visible approach
to these vital programs as well as the expansion of information on
health issues and services are warranted to ensure the protection
and maximum safety and security of Federal Labor Relations Authority
personnel.

Recommendation:

a.   Director, Administrative Services Division provide (or arrange
for experts to provide) at least annual briefings on safety and
security issues to all Federal Labor Relations Authority personnel.
Federal Labor Relations Authority management continue current
emphasis on workplace violence prevention and consult with other
Federal agencies currently attuned to this issue, in order to provide
more guidance to personnel.

b. Director, Human Resources Division provide continuing
information on health services and issues and work with Security
personnel to implement an Agency-wide preventative Violence in the
Workplace Program. (The Office of General Counsel has incorporated
Workplace Violence and Security in their Training Manual.

10. Finding:    Many of the early Memoranda of Understanding signed
by Federal Labor Relations Authority management and Union of
Authority Employees are 10 years old. Some have been “overcome by
events” while others may require updating.

Recommendation:    Union of Authority Employees/Federal Labor
Relations Authority collective bargaining negotiator(s) review,
revise or cancel, as appropriate, Memoranda of Understanding between
the Union of Authority Employees and Federal Labor Relations
Authority management executed prior to and including 1995.

The following observations are based on repetitive employee input.
While the issues may not represent the majorities perspective of

                       FOR OFFICIAL USE ONLY                      55
                       FOR OFFICIAL USE ONLY

Federal Labor Relations Authority employees (only 12% of the total
workforce population were interviewed or surveyed during this
review), the issues discussed below are important enough to evoke
Inspector General concern and should similarly evoke senior
management attention.

Observation 1

There is a perception among several Authority administrative
para-professional and clerical staff personnel that development and
progression are given only to professional staff and that management
does not provide the same development or growth opportunities to
minority support staff as it does to non-minority support staff.
 A review of current Federal Labor Relations Authority training
records validated that minority as well as non minority
para-professional employees have received various skills training
courses and several minority para-professionals and clerical staff
has been upgraded during the past few years. However, this
perception justified or not, is having an overall negative effect
on Authority administrative support para-professional and clerical
personnel morale and work ethics.

Recommendation:

a. Chair, Federal Labor Relations Authority use an agency wide task
force to prepare a formal strategy to strengthen the Federal Labor
Relations Authority’s Upward Mobility Program and direct the creation
and management support of a development program for administrative
support and clerical personnel.


Observation 2

Statistical data provided and used during this review had to be
“re-requested” three times because of inconsistencies surfaced
through Inspector General and component management during the initial
staffing of the draft. Whether these inconsistencies came from
different accounting methods or human error was not pursued as part
of this review but it did cause both the Inspector General and several
Offices of the Executive Director staff a lot more work for the
preparation of this report.

A similar problem surfaced during the Internal Review of the Case
Control Office and leaves much discomfort from an oversight
perspective since statistical information is a vital foundation for
analysis and evaluations. When data is inconsistent, its

                       FOR OFFICIAL USE ONLY                       56
                       FOR OFFICIAL USE ONLY

credibility is questionable and makes oversight conclusions
questionable. In this case, it caused additional research and
analysis; additional interviews to validate information associated
with statistical disparities, and necessitated almost a total rewrite
of the report.

Recommendation:

Federal Labor Relations Authority management develop and implement
sufficient controls and adopt a yearly review of data (including
reconciliation procedures with each of the three organizational
components) to ensure the validity and credibility of all Agency
data. As we start the new millennium, this is a most appropriate
time to address this problem.




                       FOR OFFICIAL USE ONLY                      57
                        FOR OFFICIAL USE ONLY

                            Attachment 1

     General Accounting Office Critical Components to Building Human
Capital

The Federal Labor Relations Authority has met most parts of the four
critical components to building human capital as defined by the
General Accounting Office. Major efforts are summarized below.
Areas requiring more attention are written generically as Agency-wide
concerns even though it is recognized that not all components have
these vulnerabilities.

    1.    Adopting a strategic approach to human planning.

As pointed out in a recent Federal Labor Relations Authority Office
of the Inspector General Evaluation of Federal Labor Relations
Authority’s compliance with the Government Performance Results Act,
the Federal Labor Relations Authority has done a merit able job in
its strategic planning and has tied its mission critical strategies
to current human resources. As this evaluation pointed out, the
Federal Labor Relations Authority Strategic Plan did not, however,
include the effect(s) of cross cutting activities and changes in
the amount of human resources. Management has agreed to incorporate
these two aspects during its next strategic planning update/revision.


     2. Acquiring, developing and retaining a staff with skills
and expertise to meet critical mission needs.

As a result of the current labor market, the Federal Labor Relations
Authority currently has had no difficulties in acquiring a
professional and administrative support staff to meet mission needs.
 As pointed out in this review, Federal Labor Relations Authority
supervisors spend a significant amount of time and resources in
developing, training and mentoring their staff. The one area of
concern, which is discussed in detail in the section, Hiring and
Retention of Personnel, is that over the last two years, there has
been considerable turnover of personnel. Although statistically
not much higher than the Federal Agency norm, because of the small
size of the Agency and its unique mission, the impact of loss and
retraining new personnel may be greater.


     3.    Creating a performance based organization.

As part of its strategic planning, the Federal Labor Relations

                        FOR OFFICIAL USE ONLY                     58
                       FOR OFFICIAL USE ONLY

Authority has created a performance based organization. While more
detail is available in the Federal Labor Relations Authority
Inspector General Evaluation on Federal Labor Relations Authority’s
Compliance with the Government Performance Results Act, each
organizational component has an annual action plan which depicts
its goals which tie to the agency Strategic Plan. Each Federal Labor
Relations Authority employee develops an annual work plan which ties
to the agency Strategic Plan through its component plan and provides
the basis for performance elements and ratings.

     4.   Protecting merit principles.

The Federal Labor Relations Authority endeavors to support merit
system principles. Some areas warrant more attention but, on the
whole, the Federal Labor Relations Authority does a notable job.
Below are listed the merit principles and the areas, revealed in
this review which require more management attention:

Principle
     * Recruiting qualified individuals from all segments of society
and select/advance employees on the basis of merit and fair and open
competition.

Area Requiring More Management Attention

     Diversity Hiring
     Veteran Hiring
     Professional Grade Structure

Principle
     *Treat employees and applicants fairly and equitably without
regard to political affiliation, race, color, religion, national
origin, sex, marital states, age, or handicapping position.

Area Requiring More Management Attention
     Upward Mobility Program
     Development of Administrative support clerical personnel
     Professional Diversity Hiring

Principle
     *Provide equal pay for equal work and reward excellent
performance.

Area Requiring More Management Attention
       Supervisor knowledge of performance based evaluations and
derivative award criteria.
                       FOR OFFICIAL USE ONLY                     59
                       FOR OFFICIAL USE ONLY



Principle
     * Maintain high standards of integrity, conduct and concern
for the public interest.

Area Requiring More Management Attention
     None revealed.


Principle
     * Manage employees efficiently and effectively.


Area Requiring More Management Attention

     New employee technical training
     Continuing communication on performance
     Appropriate recognition, awards

Principle

     *Retain or separate employees on the basis of performance.

Area Requiring More Management Attention

     Retention of personnel
     Grade structure of working level attorneys
     Discipline when warranted


Principle
     * Educate and train employees on the basis of their performance.

Area Requiring More Management Attention

      Individual development plans for all employees
      Management-employee discussion of the merit of training
      Employee sharing of training information with peers

Principle

     * Protect employees from improper political influences.



                       FOR OFFICIAL USE ONLY                      60
                      FOR OFFICIAL USE ONLY

Area Requiring More Management Attention

     None revealed

Principle

     *Protect employees against reprisal for the lawful disclosure
of information in “whistle blower” situations (i.e. protect people
who report things that are illegal and/or wasteful activities.

Area Requiring More Management Attention

     None validated




                           Attachment 2

                   Federal Labor Relations Authority Accessions and
Separations for FY 98 and FY 99

I.   Accessions

Skills                    1999                1998

Attorneys                Authority –7         Authority - 10
                         OGC -8               OGC- 9
                         FSIP -1              FSIP - 1

Labor Relations          Authority-0          Authority -0
                      FOR OFFICIAL USE ONLY                     61
                  FOR OFFICIAL USE ONLY

Specialists         OGC - 4                OGC - 0
                    FSIP - 0               FSIP - 0

Administrative      Authority -4           Authority - 9
Professionals       OGC - 0                OGC - 0
                    FSIP - 1               FSIP - 0

Administrative      Authority -7           Authority - 2
                    OGC - ll               OGC - 0
                    FSIP - 0               FSIP - 0

Legal Para-         Authority - 1          Authority - 0
Professionals       OGC - 0                OGC - 0
                    FSIP - 0               FSIP - 0


II Separations

Skills               1999                  1998

Attorney            Authority -6           Authority - 1
                    OGC 4                  OGC- 6
                    FSIP -0                FSIP - 1

Labor Relations     Authority-0            Authority 5
Specialists         OGC - 5                GC - 0
                    FSIP - 0               FSIP - 0

Administrative      Authority-5            Authority 5
Professionals       OCG -0                 OGC-0
                    FSIP 0                 FSIP-0

Administrative      Authority -5           Authority - 2
Clericals           OGC -5                 OGC - 3
                    FSIP - 1               FSIP - 2

Legal Para-         Authority - 1          Authority - 0
Professionals       OGC - 0                OGC - 0
                    FSIP - 0               FSIP - 0


Retirements         Authority -2          Authority - 0
                    OGC - 3               OGC - 3
                    FSIP - 0              FSIP - 0



                  FOR OFFICIAL USE ONLY                    62
                        FOR OFFICIAL USE ONLY

                            Attachment 3

Management Actions Which Have Positive Effects on Human Resources

The following information pertains to actions, which I have found
over my years of Federal government oversight and management
consultation, are important management actions which have a very
positive effect on human resource morale, productivity and loyalty
to the organization.      Federal Labor Relations Authority managers
do many of these now. I have listed them so that you might have
this as a reference for staff meeting and/or individual communication
with managers/supervisors.

1.    Hiring the right skill and experience-based staff,

2.    Organizing workload for equitable distribution,

3.    Assigning tasks with skill strengths in mind,

4.    Providing clear and consistent direction,

5. Setting goals and objectives which are reflected in the staff’s
performance appraisals,

6. Communication,

7. Mentoring (coaching, encouraging, and providing constructive
feedback),

8. Empowering staff with autonomy, responsibility and
accountability,

9. Providing tools and technology that enable individuals to perform
their functions,

10.    Providing training opportunities,

11.    Identifying employee potential and fostering development,

12.    Recognizing good work and rewarding performance,

13.    Taking disciplinary action when warranted,

14.    Resolving or arbitrating conflicts,

15. Bringing employees’ concerns to higher level management, and

                                                                   63
                       FOR OFFICIAL USE ONLY


16. Making human resource management a prime aspect of all strategic
planning.




                                                                 64
                       FOR OFFICIAL USE ONLY

                           Attachment 4

                     Human Capital Investment
                  Questions for FLRA Supervisors


Name      ________________________ (Optional)
Grade/Title    ________________________
Yrs. Employed at FLRA    _____________
Organization   ________________________
No. of Employees Supervised___________


1. Are FLRA human resource policies and procedures clear and
understandable?

2. Does FLRA workforce planning include a strategic analysis of
needs?

3.   Is hiring new employees timely?

4.   Are you empowered to make your own hiring decisions?

5. Do you have the appropriate mix of skills and competencies among
your employees?

6. Do you have the empowerment to reward your employees
appropriately?

7. Do you have the empowerment to discipline and fire employees
appropriately?

8. Do you feel the FLRA has a cooperative and balanced (i.e.
partnership) relationship with its labor union?  Explain.

9.   Do you have sufficient incentives to retain skilled employees?

10. What have you done over the last two years to retrain current
employees to meet new workforce needs?

11. How have you involved your employees in improving program
management and customer services?

12. How have you prepared your employees for new technology and
programs and processes?



                                                                65
                       FOR OFFICIAL USE ONLY


13. Do you feel the two level pass/fail evaluation system provides
a fair and accurate assessment of your employee’s performance?

14. Over the last two years, what types of training have you
provided/approved for your employees?  Do you discuss training with
the employee after it is completed?
15. Do you feel you provide insight as well as oversight over your
employees? Explain.

16.   What are your thoughts on FLRA’s Upward Mobility Program?

17. Describe your assessment of FLRA’s treatment of employees as
an asset.

18.    Is your budget sufficient for developing your employees?

19.   What do you think is FLRA’s major problem with its employees?




                                                                  66
                        FOR OFFICIAL USE ONLY

                            Attachment 5

                      Human Capital Investment
                       Questions for Employees


Name __________________________________ (Optional)
Grade/Title    _____________________________
Yrs. Employed at FLRA_____________________
Organization   _____________________________
Supervisor     _____________________________


During the past two years (FY98 and FY99):

1. What types of “investments” has the FLRA made in you, as an
employee?




2.   Do you think you have received sufficient developmental training?



3. Have you been or applied to be a participant in the Tier I or
Tier II programs?



4. Do you think the FLRA defined core competencies are
representative of the skills you need to perform your job?    If not,
what is missing?




5. Do you have an Individual Development Plan which is reviewed
and updated annually?




6. Are you aware of the Employee Assistance Program, available
Health Services and Safety and Security requirements?

7.   Do you find the Human Resources Office responsive and helpful?
                                                                   67
                       FOR OFFICIAL USE ONLY



8. Do you think the FLRA has placed an emphasis on the development
of its employees?



9. Do you think the Union of Authority Employees is sufficiently
involved in FLRA employee initiatives?



10. Do you think FLRA has placed appropriate emphasis on diversity,
affirmative action and employee development?



11. What is your assessment of the success of FLRA’s Upward Mobility
Program?



12. What is your assessment of FLRA’s grade structure and position
classification?



13. Based on the level of work you perform, do you think your grade
reflects?
the level of expertise required?


14. How would you rate management’s communication with working level
employees?


15. Do you think that awards are equitably given to deserving
personnel?




16.   Do you think that extraordinary performance is recognized?

18. Do you have appropriate empowerment to support your
responsibilities and accountability?
19. Do you have contemporary tools, technology equipment, and
                                                                   68
                      FOR OFFICIAL USE ONLY

information access to perform your job?


20. What is your opinion on the FLRA’s “pass/fail” performance
system?




Additional Questions/Comments




                                                                 69
                       FOR OFFICIAL USE ONLY




                            References



Corporate University Review, Investing in Human Capital: The Case
for Measuring Training ROI, by Edward Gorden, PhD, July 1, 1999.

Government Executive, Strategies for Success, by C. Wayne Peal, July
1, l999.

Government Executive, Volume 31, Number 2, Stacking Up, by Anne

                                                                  70
                       FOR OFFICIAL USE ONLY

Laurent, February l999.

Government Executive, Volume 31, Number 2, The Human Factor, by David
Hornstay, February, l999.

Maxwell School of Citizenship & Public Affairs, Government
Performance Project, by Alan K. Campbell, 1996

National Academy of Public Administration, Leading People in Change,
April l993

U.S. Office of Personnel Management, Strategic Human Resource
Management, March 10, 1999

U.S. Office of Personnel Management, Strategic Human Resource
Management, October 28, 1998

FLRA Regulation 3430.2, Performance Management System Plan, February
20, l987




                                                                  71
